<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF TRANSPORTATION AND

                    RELATED AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS
                    HAROLD ROGERS, Kentucky, Chairman
 FRANK R. WOLF, Virginia             MARTIN OLAV SABO, Minnesota
 TOM DeLAY, Texas                    JOHN W. OLVER, Massachusetts
 SONNY CALLAHAN, Alabama             ED PASTOR, Arizona
 TODD TIAHRT, Kansas                 CAROLYN C. KILPATRICK, Michigan
 ROBERT B. ADERHOLT, Alabama         JOSE E. SERRANO, New York
 KAY GRANGER, Texas                  JAMES E. CLYBURN, South Carolina
 JO ANN EMERSON, Missouri
 JOHN E. SWEENEY, New York          
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Richard E. Efford, Stephanie K. Gupta, Cheryle R. Tucker, and Leigha 
                      M. Shaw, Subcommittee Staff
                                ________
                                 PART 8

                    TESTIMONY OF MEMBERS OF CONGRESS

                          AND PUBLIC WITNESSES

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 80-361                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2003

                              ----------                              

                                          Thursday, March 14, 2002.

                         TRANSPORTATION FUNDING

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                                WITNESS

HON. ED WHITFIELD, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF KENTUCKY

                            Opening Remarks

    Mr. Rogers. We are delighted to have several Members of the 
Congress with us already, and we welcome each one of you. We 
will give you plenty of time to make your case, but we have 
some 50 or 60 of our colleagues who want to do the same, so we 
urge you to be terse and to the point.
    I am delighted to welcome our home folks. I could not be 
more proud of the Members of our delegation from Kentucky, and 
I invite them to take the witness table. We will be happy to 
hear what you have to say, recognizing first from the 1st 
District, Ed Whitfield.
    Mr. Whitfield. Mr. Chairman, thank you very much for giving 
us this opportunity to talk about important infrastructure 
needs in our district. As you might expect, I do have an entire 
testimony here, and there are a number of very important items 
in my testimony, but I am only going to talk about two of them.
    Mr. Rogers. We will make your written testimony part of the 
record and invite you to summarize.
    Mr. Whitfield. Mr. Chairman, the first project I would like 
to discuss briefly is relating to Crittenden County, Kentucky, 
which is one of the counties with one of the highest 
unemployment rates in the state. They recently lost a number of 
very important industries, one Siemens, a German firm.
    They have been working with the Federal Aviation 
Administration to modernize their airport in Marion, Kentucky. 
Last year we were able to obtain funding to develop the master 
plan, and so this year we have met with the FAA again. The 
airport board has met with them. We have had a number of very 
good discussions with them, and we are asking for $800,000 to 
prepare all engineering for the Phase 1 development and to 
excavate for the runways, taxiways and apron.
    The second project is halfway between Owensboro, Kentucky, 
and Bowling Green in Butler County. Highway 231 goes right 
through the natural parkway, is right near the high school 
there in Butler County, as well as the public housing, as well 
as the shopping center area. 231 as it exists today is just a 
very small, two lane highway. There have been a number of 
deaths on that highway. It is the number one priority for the 
people in that area.
    We have certainly met with the state highway. It is in the 
six year plan, but the current system is simply inadequate, and 
we are requesting $800,000 for design work to get us on the way 
of removing that serious congestion relating to Butler County.
    That will terminate my testimony, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Whitfield.
    [The prepared statement of the Hon. Ed Whitfield follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

             TRANSIT AUTHORITY OF NORTHERN KENTUCKY (TANK)

                                WITNESS

HON. KEN LUCAS, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
    KENTUCKY
    Mr. Lucas. Mr. Chairman, it is a pleasure to be here, and I 
thank you for the work you are doing for the transportation 
needs of Kentucky and the nation.
    Mr. Chairman, I just have one request today. Transportation 
is such a significant part of our economic development factor 
in our region, as it is in all regions and in particular 
northern Kentucky. I want to highlight just one project, the 
Transit Authority of Northern Kentucky. We affectionately call 
that TANK. We are requesting $3 million for bus replacement and 
expansion.
    It is vital to us, crucial, that we keep our bus 
replacement program going so our fleet will always be a viable 
fleet. It serves Boone, Kenton and Campbell Counties, some 
300,000 people. Of course, a lot of our folks go to downtown 
Cincinnati to work.
    TANK takes folks from northern Kentucky to downtown 
Cincinnati and also to Newport and Covington to work, but we 
have an unusual situation in that we also have a reverse 
commute where we have a lot of people coming from the inner 
city areas going out to the airport area where there are a lot 
of jobs at the airport and businesses surrounding the airport. 
It is a unique opportunity for people of modest incomes to have 
the ability to go to these jobs that are at or near the 
airport, which is probably some 15 miles from the core area of 
downtown.
    We also have a lot of riders that ride the public transit 
by choice. Two-thirds of the customers on our transit who use 
our transit are females age 25 to 50. They own their own home 
and have an automobile, but they choose to ride TANK from these 
park and ride lots. That does a great deal for us in our area, 
particularly during the rush hours in the morning and the 
evening. The ridership on TANK goes up four times during the 
rush hour, as opposed to the normal day.
    TANK is a big operation in our community. They have like 
138 vehicles. They traverse in a fiscal year about 4.8 million 
miles. They have 273 employees, and they carried over 4,000,000 
passengers this past fiscal year.
    I would just urge you to consider this for inclusion in a 
federal funding request because it is such a vital need for our 
community.
    Thank you.
    Mr. Rogers. How many people commute across the river by 
bus?
    Mr. Lucas. Well, I would say, you know, we do not have 
figures that show the number of folks that stop in downtown 
Covington, Newport and that area versus going on across the 
river, but it is so compact. I would venture to say that two-
thirds of those people, the 4.2 million people per year, are 
going from northern Kentucky across to Cincinnati to work.
    Mr. Rogers. Okay. Thank you very much.
    Mr. Lucas. Thank you.
    [The prepared statement of Hon. Ken Lucas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Our neighbors to the south, Bob Clement and 
Bart Gordon? We will make your written statements part of the 
record, and you are invited to summarize your testimony.
                              ----------                              

                                          Thursday, March 14, 2002.

            NASHVILLE/MIDDLE TENNESSEE COMMUTER RAIL SYSTEM


                               WITNESSES

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
HON. BOB CLEMENT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Gordon. Thank you, Mr. Chairman and Ranking Member 
Sabo. In appreciation for this committee's previous support for 
the National Middle Tennessee Transportation System, I am going 
to be brief. I will submit my statement for the record.
    I would like to point out one thing that I know the 
Chairman already knows by virtue of flying into Nashville 
frequently and being in Nashville, and that is that last year 
USA Today released a study ranking sprawl in Nashville as the 
worst in the country. The worst in the country. With that 
obviously comes a great deal of congestion.
    Middle Tennessee is currently the tenth ranked area in the 
country for delays per person due to traffic congestion. A 
Texas Transportation Institute study indicates that the 
percentage of time that our highways spend in severe or extreme 
congestion during peak hours increased from six percent in 1991 
to 43 percent in 1999. We have a problem. We need your help. 
You have been helpful. We are moving forward and I think making 
good progress.
    Now I would like to yield to my friend and neighbor and 
colleague, Bob Clement, who is a Member of the House 
Transportation Committee, to give you more details on what we 
plan to do.
    [The prepared statement of Hon. Bart Gordon follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Clement. Thank you, Mr. Gordon.
    Mr. Chairman, I want to also say as a Member of Congress 
from Country Music USA, we appreciate you being there for the 
Hexagon performance last night and singing with your shirts on 
and all, you and Congressman Duncan.
    Mr. Rogers. I was hoping you would not mention that.
    Mr. Clement. I know you were outstanding. Not only that, 
but I wish I could have been there with you. Being on the 
Budget Committee, we went until midnight last night, so I was 
not able to be part of the group, but I will in the future.
    Mr. Rogers. We missed you last night. I have to tell you 
that the experience was not nearly as exhilarating as it was 
when we sang our first time at the Grand Ole Opry.
    Mr. Clement. People will never forget that. I assure you.
    Mr. Chairman, Members of this subcommittee, I thank you for 
taking time to consider our request for federal funds for the 
National Regional Commuter Rail System. I sincerely applaud 
your consistent support for this project and want to let you 
know that the citizens of middle Tennessee greatly appreciate 
your actions as well.
    In these troubled times, this committee faces difficult 
choices as projects nationwide compete for limited dollars, and 
I am grateful that you have deemed the National Commuter Rail 
Project worthy of your support. We testify today on behalf of 
the Regional Transportation Authority, whose executive director 
is right here by me, Eric Byer.
    We are requesting $13 million in fiscal year 2003, federal 
funds for completion of the East Corridor Commuter Rail 
Project. So far, the East Corridor Project has received $12 
million in design and construction funds thanks to the wisdom 
of this committee. The additional $13 million will be used to 
complete the infrastructure and other necessary improvements to 
begin operation of commuter rail service in 2004. The total 
federal funding level through the FTA is within the $25 million 
limit for non full funding grant agreements.
    I am proud to report that since this time last year, work 
on the east corridor has progressed significantly. Last fall 
the RTA, through cooperation with federal and state agencies 
and local jurisdictions, entered into the final design phase. 
The Federal Transit Administration has been involved on every 
level and has identified National Regional Commuter Rail as a 
worthy project.
    This project is one of the least costly new starts in the 
history of the FTA, the fastest to go through preliminary 
engineering and the cheapest per mile to construct in federal 
dollars. It is slated to go from final design to opening in 
just about 17 months, one of the quickest schedules on record.
    The east corridor will use trackage belonging to the 
National & Eastern Railroad Authority operated by N&E. The east 
corridor is 32 miles long and will feature six stations in two 
counties. The National Regional Commuter Rail Project is an 
important public transit endeavor that will help improve the 
quality of life for middle Tennessee families.
    In addition to the $13 million requested to complete the 
east corridor, I am also requesting $3 million in funds for 
preliminary engineering for the four other commuter rail 
corridors that radiate from downtown Nashville.
    In closing, I want to thank you for your consideration of 
this request. I would like at this time very briefly to have 
Eric Byer, our executive director of the Regional 
Transportation Authority, to make some very brief comments, Mr. 
Chairman.
    [The prepared statement of Hon. Bob Clement follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Very brief because we are behind schedule.
    Mr. Clement. Certainly.
    Mr. Byer. Thank you, Mr. Chairman. I think both the 
Congressmen have presented quite well the need and the 
challenges that we have in middle Tennessee and the cooperative 
effort that we have on behalf of federal, state and local 
governments for this project.
    We again thank you for your consideration and support for 
this project and look forward to working with you in the 
future. Thank you.
    Mr. Rogers. Thank you. Let me just make a note to tell you 
that this subcommittee has adopted a policy of not funding any 
project with federal funds that exceeds 60 percent. We will 
only give you 60 percent of the cost.
    I noticed that yours was at 70 percent, so I would 
encourage you to work on this because the problem is we have so 
many projects around the country that are demanding money. We 
have to spread these federal dollars as widely as we can.
    Mr. Byer. Thank you, sir. One of the issues locally that we 
are working on, of course, is joint development and 
opportunities for outside sources and partnerships to bring up 
the local share commitment to a higher level that I think would 
be acceptable to the committee.
    Mr. Rogers. Well, you have to get it below 60. Sixty or 
below. Thank you.
    Mr. Gordon. Mr. Chairman, for your information, the first 
one goes to Lebanon, if you know where that is. That would be 
east of the airport. Thank you very much.
    Mr. Rogers. Thank you.
                              ----------                              

                                          Thursday, March 14, 2002.

              MARKET STREET INTERCHANGE RELOCATION PROJECT


                                WITNESS

HON. JULIA CARSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Rogers. We are happy to welcome Julia Carson.
    Ms. Carson. Thank you very much, Mr. Chairman. I would hope 
we have some kinship. I was born in Louisville, Kentucky, so my 
southern drawl sort of follows me up to Washington. Thank you 
very, very much, and certainly to the Ranking Member, the 
Honorable Mr. Sabo, for the consideration this morning.
    My request is very simple, and that is for $5 million 
through the Federal Highway Administration to relocate a Market 
Street interchange between I-65 and -70. Mr. Chairman and 
Ranking Member, what happened was we had to tear down our 
Market Square Arena, which was the home of the Indiana Pacers, 
and had to rebuild another arena. The consequence of that was 
leaving the interchange highway hanging.
    We respectfully ask that we have already demolished the 
arena, but we need money to reorchestrate the interstate, which 
is obviously out of proportion to scale with the residential, 
office and retail growth that we are trying to foster in this 
newly developing neighborhood. The ramp serves as a visual and 
a physical barrier to roughly 15 square blocks that have opened 
up with the demolition of the former arena.
    I know you can read it as well as I can. I am not going to 
consume any more of your time. We have other requests in this 
correspondence and would really appreciate your serious and 
favorable consideration.
    Thank you, Mr. Chairman.
    Mr. Rogers. We thank you for your testimony. We will make 
your written statement part of the record.
    Ms. Carson. Thank you.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Julia Carson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

          OHIO RAILROAD, HIGHWAY, TRANSIT AND AIRPORT PROJECTS


                                WITNESS

HON. DENNIS KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Kucinich. Yes. Thank you very much, Mr. Chairman. I 
accept the Chair's admonition from the beginning that we have 
to look at that 60 percent as being the max. I would like that 
incorporated in the understanding of all of these projects that 
I am going to briefly review. I want to thank the Chair and Mr. 
Sabo for this opportunity.
    My first priority is to fully fund the railroad grade 
separations at Front Street and Bagley Road in Berea. As a 
result of the CSX and Norfolk Southern acquisition of Conrail, 
the railroad has dramatically increased the number of freight 
trains through the southern suburbs of Cleveland. The effect of 
this increase in freight train traffic on these densely 
populated residential communities has been devastating.
    In order to protect these suburbs, two underpasses and an 
overpass had to be built. This agreement did not come without 
some commitments from both the private and the public sectors. 
Working with Congressman Steven LaTourette, we secured $26 
million in federal funding through TEA-21. Recognizing the 
importance of solving these community issues for the good of 
the entire Conrail acquisition, Norfolk Southern and CSX 
combined $44 million in a commitment between them, and the 
State of Ohio committed $17 million in state funds.
    I recently learned that the estimates for the projects were 
inaccurately estimated, and I have been asking all parties to 
work together to make up the difference. I am asking the 
subcommittee to provide $8.95 million.
    In the interest of facilitating the work of this committee, 
Mr. Chairman, I would ask the committee to consider all of the 
requests, including Cleveland-Hopkins International Airport's 
sound insulation program, the Berea pedestrian safety 
initiative, and help for traffic signals in the City of 
Westlake, which is our fastest growing community.
    Finally, I am requesting the committee make available $6 
million for the continuing effort to rehabilitate the bus 
garage that serves the public transit needs for many 
communities in my district.
    I have a project questionnaire at this time that I want to 
submit, and I thank the Chair.
    Mr. Rogers. Thank you. I appreciate your testimony. We will 
make your written testimony a part of the record. Thank you 
very much.
    Let me say to my colleague, Mr. Sabo, if you have any 
questions or comments feel free to just break right in.
    Mr. Kucinich. Would you prefer that I wait here, Mr. 
Chairman?
    Mr. Rogers. No. Thank you.
    [Prepared statement of Hon. Dennis Kucinich follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                 EUCLID CORRIDOR TRANSPORTATION PROJECT


                                WITNESS

HON. STEPHANIE TUBBS-JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mrs. Jones. Welcome. Thank you, Mr. Chairman. Welcome. I 
thank you for the opportunity to appear, Mr. Chairman, Mr. 
Sabo, to speak on behalf of a project in my district.
    I want to introduce to you Mr. Joseph Calabrese, who is in 
fact the general manager from the Regional Transit Authority, 
one of the projects that my colleague, Mr. Kucinich, spoke with 
regard to.
    To date, Mr. Chairman and Members, the subcommittee has 
been gracious enough to appropriate during the fiscal year 2002 
cycle $6 million for the Euclid Corridor Transportation 
Project. This year we are requesting $20 million in new start 
funding earmarked that will be used to complete final design, 
begin land acquisition and construction of management services.
    The Euclid Corridor Transportation Project is a 6.7 mile 
bus rapid transit line operating from Public Square in downtown 
Cleveland to the South Windermere red line transit station in 
East Cleveland. Using an exclusive center median busway along 
Euclid Avenue, the street through which the project is named, 
the bus rapid transit line will connect Cleveland's two largest 
employment centers, the Central Business District and 
University Circle, which includes major cultural, medical and 
educational institutions.
    From there, the transit vehicles will transition to the 
curb and continue into neighboring East Cleveland to serveone 
of our most highly used rail facilities, the Louis Stokes, and you know 
that name, Rapid Transit Station at Windermere.
    The improved downtown bus and auto distribution system will 
enable suburban transit riders to arrive at their downtown 
destinations more efficiently than is currently possible. It 
will also facilitate the area around which both business, 
educational and civic that this transportation project runs 
through.
    We have received considerable public/private partnerships, 
and I will not go through all of them, but, for example, in 
2000, the City of Cleveland signed an interagency agreement 
with the Greater Regional Transit Authority committing $17 
million.
    Our request for new start funding represents about 61 
percent of the total $220 million project cost with the 
remaining 39 percent coming from the State of Ohio, the City of 
Cleveland, and the Regional Transit Authority.
    In the private sector, the transportation advocacy 
committee of the Greater Cleveland Growth Association, our 
chamber of commerce, cites the Euclid Corridor Transportation 
Project as its number one transportation priority. Cleveland 
Tomorrow, a private sector economic development group led by 
CEOs of Cleveland's 50 largest companies, identified the 
project as one of the top transit needs in its plan, Civic 
Vision 2000 and Beyond.
    I have talked about local commitment of dollars. We are 
just so happy. Excuse me. I also should say there has already 
been more than $400 million invested in projects currently 
completed or under construction in the downtown section of 
Euclid Avenue. This will be a catalyst for continuing economic 
development in my community. It will provide for access to jobs 
and housing opportunities for residents not only in the 
immediate area, but throughout the region.
    Mr. Chairman, if we are to stay on our current schedule for 
the project we need and are requesting $20 million in FY 2003. 
We appreciate your prior support, and we seek your continued 
support for this wonderful transportation project.
    I would be remiss if I did not thank three other members of 
our Ohio delegation who have been working very hard on this 
issue, Ralph Regula, Steve LaTourette and Marcia Kaptur.
    Thank you very much. I am prepared to respond to any 
general questions, and he will answer any specific questions.
    Mr. Rogers. I notice that in your testimony you say that 
you are asking for a 61 percent federal share.
    Mr. Kucinich. Mr. Chairman, we understand your 60/40 
request, and that is not a problem.
    Mr. Rogers. You can adjust?
    Mr. Kucinich. Yes, sir.
    Mr. Rogers. Your request is above the budget request.
    Mrs. Jones. I probably should answer that question. It is 
above the budget request, Mr. Chairman, but, you know, we are 
amenable to any changes that you need to make for this to be a 
successful project.
    Mr. Rogers. I hear you. Thank you very much.
    Mrs. Jones. Thank you.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Kucinich. I thank you for your support in the past.
    [Prepared statement of Hon. Stephanie Tubbs-Jones of Ohio 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 14, 2002.

             UPSTATE NEW YORK HIGHWAY AND TRANSIT PROJECTS


                                WITNESS

HON. MICHAEL McNULTY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. McNulty. I thank you, Mr. Chairman. I will summarize. I 
have five projects of importance in my district. I would like 
to ask for the Chairman's consideration and the Ranking 
Member's consideration and Members of the committee.
    First, the Albany Waterfront Development Project and 
Reserve Project. This is an ongoing phase project being 
conducted by Albany mayor Jerry Jennings on the shores of the 
beautiful Hudson River, which borders on the capital city of 
Albany, New York. I would like your consideration for some 
assistance as we move forward with that project.
    The Schenectady Intermodal Station Western Gateway Project, 
which will link Amtrak, commercial bus service, local bus 
service, commuter rail, automobile, bicycle and pedestrian 
traffic at one location for Schenectady County.
    The third project is a project in the Hamlet of Southkirk 
in the town of Bethlehem, New York. It is a 2.3 mile roadway 
that will connect U.S. Route 9W with New York State Route 144.
    The fourth project is a bridge replacement project in the 
town of Coeymans. It is truly a safety issue with regard to 
residents of a large mobile home park who now have only one way 
of getting across to the main highway. That bridge is in bad 
need of replacement. We would like to move forward on that.
    Finally, the I-90 Connector Project, Mr. Chairman, whichyou 
have funded in the past, which is I think a terrific example of a 
transportation project which produces very positive economic 
development. It was the dream of George Lowe, who you may remember from 
his NAFTA days, who later went on to become president of RPI, 
Rensselaer Polytechnic Institute, in my district.
    He had a vision for a creation of a high tech park in our 
region. He took a vacant tract of land in the Town of North 
Greenwood just outside of Troy. I was in the State Assembly at 
the time. I teamed up with Senator Joe Bruno, who is now the 
Senate Majority Leader. We started working on transportation 
projects with regard to the development of that park.
    I am proud to say, Mr. Chairman, that due to funding you 
gave before with regard to the project, we built that project. 
It is now in use. This is a connector project between the 
project you funded before going through the other area, the 
under developed area of this test park.
    We have produced, Mr. Chairman, to date 2,500 jobs on this 
vacant tract of land, and it is estimated not by me or the 
other politicians involved, but by the folks running the park, 
that if we get this connector route built, which you have 
already given us money for several times, we will be able to 
produce between 2,000 and 4,000 more new jobs. That is very 
exciting, of course, for us and the entire area economy. I 
would appreciate your continued consideration of that project 
as well.
    I understand that for all of these projects the numbers 
submitted are the numbers requested by the entities. I 
understand the constraints you are under, and I appreciate any 
consideration and any dollar amount that you can give to any of 
these projects.
    Mr. Rogers. Thank you very much. We will try our very best. 
That is a good statement.
    Mr. McNulty. I understand it well.
    Mr. Rogers. Anyway, we will work with you.
    Mr. McNulty. Thank you, Mr. Chairman. Thanks much.
    [Prepared statement of Hon. Michael McNulty follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Kirk? We will make your written statement a 
part of the record.
    Mr. Kirk. Thank you. I have one.
    Mr. Rogers. You can just summarize for us.
                              ----------                              

                                          Thursday, March 14, 2002.

                  CHICAGO METRA COMMUTER RAIL PROJECT


                                WITNESS

HON. MARK KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS
    Mr. Kirk. This is my number one project. It is part of the 
new starts program, which has a full funding grant agreement. 
The key parts of this is a commuter rail from Chicago called 
Metra. The extension goes down to Manhattan, into the Speaker's 
district in Elburn and the north central service to my 
district.
    The request in the budget is for $52 million to fund this 
first new commuter rail line in America in 70 years, the north 
central service along the Wisconsin Central Rail Line. 
Basically this and up is the congressional district I 
represent.
    The Census Bureau says that in this area--by the way, the 
center of the City of Chicago is down here.
    Mr. Rogers. If you would just set that there?
    Mr. Kirk. The center of the City of Chicago is down here. 
The Census Bureau has told us that approximately 250,000 
Americans have moved into this district as of the 2000 census, 
and another 300,000 will come in in 2010.
    With this line, we are now running just four trains a day. 
It is a single track. The full funding grant agreement allows 
us to put in two tracks, so we will go from four trains a day 
to 14 trains a day. The reason why this is so important is 
right now with just four trains a day we have one of the 
fastest growing new riderships. We have 5,000 riders right now 
getting used to these new train stations. As we lay in the 
second track, obviously we will have trains that go both north 
and south at the same time.
    The whole point of this is not just that we serve half a 
million Americans that are moving to this area. As you know, 
O'Hare is now the subject of a historic agreement. Illinois is 
one of two states in the nation where the governor needs to 
give permission to expand runway capacity. The Republican 
governor of my state has a longstanding philosophy and has 
denied permission for the airport to expand until recently.
    About three months ago, he and Mayor Daley agreed to expand 
that airport. That means we will have a $7.5 billion expansion 
largely funded by bonds from the airlines so that we 
dramatically expand the world's busiest airport. The ability 
for these communities to connect to O'Hare is also a key 
drawing point for this plan.
    We have had a huge spike in ridership, but we think that it 
will expand. The established communities that I represent here 
already are served by this line. Basically, I do not know 
anyone living in these communities and working in downtown 
Chicago who get in the car. There is a whole way of life here 
based on commuter rail.
    Here, though, everyone is forced to get in a car. Basically 
driving say from Vernon Hills to downtown Chicago on a key rush 
hour would be about two hours. With this service, we offer all 
of these people the chance to get to downtown Chicago in 50 
minutes, so it will be an enormous expansion in ridership once 
we get the double track in.
    There is one other environmental project. The Chicago-
Milwaukee area is one of the worst non-conforming areas 
according to the Clean Air Act. EPA forces us to burn a unique 
brand of fuel, which is why we suffered from the highest fuel 
prices in America last summer.
    Projects like this will pull tens of thousands of cars off 
the highway in hopes that the Chicagoland area will not fall 
under the hammer of the Clean Air Act in 2007. That is a key 
goal as well. If we can get Chicago out of burning this unique 
RFG fuel, it will go a long ways to help lower fuel costs and 
cleaner air.
    For those reasons, I wanted to appear before the committee. 
There was strong support in your legislation last time. I look 
forward to increasing cooperation from the authorizing 
committee next year and keeping this on track. It is already 
signed by Secretary Mineta and included in the President's 
budget, but I appear before you today to seek your support for 
the project.
    Mr. Rogers. What is the distance roughly mileage wise from 
Antioch at the top there?
    Mr. Kirk. About 50 miles.
    Mr. Rogers. Fifty?
    Mr. Kirk. Right. This is the Wisconsin border right here.
    Mr. Rogers. I see.
    Mr. Kirk. One thing that you probably would not note at 
first glance is normally the end of the line station would be 
the least used.
    In this case, because of taxes, state taxes, for middle 
income workers in Wisconsin are lower than in the State of 
Illinois, there is a vast expansion of people, several hundred 
thousand people as well, so I will expect probably the most 
heavily used station in this project will be the Antioch 
station. There will be Wisconsin riders coming down to the 
Antioch areas to service the high tech industry in this area 
right here.
    A significant percentage, I would say probably 30 percent, 
of all internet sales in the world are right here in the 
hospital supply and pharmaceutical industry and those workers 
serving those areas.
    Mr. Rogers. We thank you for your testimony.
    Mr. Kirk. Thank you very much, Mr. Chairman.
    [Prepared statement of Hon. Mark Kirk follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                  CENTRAL TEXAS I-35 CORRIDOR PROJECT


                                WITNESS

HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Edwards. Mr. Chairman, thank you very much. I assumed 
you would forgive me for not reading my entire statement and 
certainly for me to talk to you and Mr. Sabo about the 
importance of transportation throughout my trying to teach the 
Mormon Tabernacle Choir how to sing. I thank you both for your 
leadership in this very important hearing on the infrastructure 
of our country.
    Since you know more than anyone in this room about 
transportation, both of you, I would like to just mention six 
specific facts about the need for funding for Interstate 35 in 
Texas. I represent approximately 72 miles of that. It goes 
through Mr. Gonzalez's district. There are over 20 Members of 
the House, Republicans and Democrats alike, who represent part 
of I-35 somewhere between Laredo, Texas, at the U.S.-Mexican 
border and the Minnesota and Canadian border.
    Fact number one. Texas border crossings handle 
approximately 80 percent of the U.S.-Mexico truck traffic, and 
40 percent of this traffic continues through Texas to other 
destinations in the U.S. and Canada. That traffic goes through 
Oklahoma, Kansas, Missouri, Iowa and then the great State of 
Minnesota. If we could make it go through Kentucky, we would 
certainly have a loop around there as well.
    Third fact. NAFTA related traffic now accounts for about 16 
percent of all Texas truck travel.
    Fact four. Commercial truck crossings from Mexico have 
increased 216 percent--216 percent--since 1990 from a combined 
726,000 in 1990 to a combined 2.3 million in 1999. I think that 
will give you a flavor of the credible increase in demand on 
this vital economic artery for our country and our 
international trade programs.
    Fact number five. The international bridges at Laredo 
alone, the busiest port on the border, had 2.8 million 
commercial vehicle crossings. Again, that is the southern 
beginning point of I-35.
    Fact five. Unfortunately, funding for infrastructure 
improvements on I-35 has not kept pace with the explosive 
growth I have just mentioned in truck traffic.
    Finally, Mr. Chairman, it seems that the Texas Department 
of Transportation has been unable to effectively obtain much of 
the hoped for money that might have come out of the corridors 
and borders program due to the high number of high priority 
corridors throughout the country competing for these projects.
    For all the reasons I have mentioned, in your deliberations 
on what has ben an incredibly difficult year, important 
subjects, complex issues with lots of deserving demands, I hope 
you could take a little time to look at the importance of 
Interstate 35 to our country--not just to my district, but to 
the entire country--and its trade relations with Mexico and 
Canada and look at possible consideration for funding.
    Thank you, Mr. Chairman. Thank you, Mr. Sabo.
    Mr. Rogers. Thank you for your testimony. We will do the 
best we can with what little we have to work with this year.
    [Prepared statement of Hon. Chet Edwards follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

         EL PASO, TEXAS, TRANSIT, HIGHWAY AND AIRPORT PROJECTS


                                WITNESS

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Rogers. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. It is a pleasure to be 
before you again.
    When we talk about the issue of transportation for El Paso, 
there are some very important priorities that I hope to get 
support from both you and our Ranking Member as it pertains to 
transportation.
    First and foremost, we are as far west in Texas as you can 
get. We are right at the midpoint of the underbelly of New 
Mexico. When my good friend and colleague, Chet Edwards, talks 
about the impact that NAFTA has had on the I-35 corridor, when 
he talks about 80 percent of the goods coming in through Texas, 
40 percent coming through I-35, the other 35 percent or so 
comes through El Paso, the El Paso-Juarez region.
    There are a number of different priorities that we hope to 
get your collective help on. The first one would be a request 
for $5 million to support a design phase for a light rail 
system. We are a region when you factor in almost 2,000,000 
people in Juarez, about 740,000 in El Paso and 300,000 in Las 
Cruces, New Mexico, all within a radius of 40 miles, we have a 
tremendous challenge in moving people around.
    We would request $5 million for the initial design phase of 
a people mover or a light rail system. We think it is 
imperative that we start planning for the future in that 
manner. It also will help our ability to deal with not just the 
pressure of traffic on the bridges, but also pollution and air 
quality concerns in that area.
    In addition to that, we are also seeking support from the 
committee for $1.5 million for a dedicated commuter lane. This 
is a lane that is technology driven that gives us the 
opportunity to move people quickly from Juarez into El Paso. It 
involves a system that has already been tried and proven. In 
fact, we already have an existing dedicated commuter lane in 
the downtown area, and we need a second lane again because of 
the population pressures that we are facing.
    In addition to that, our third priority is about $5 million 
to replace old buses. The need is between $25 million and $30 
million, but knowing the financial constraints that we face 
with money issues on this committee, we would certainly 
appreciate support for about $5 million to replace at least 
some of the buses that are in severe disrepair.
    As you know, Mr. Chairman, I represent a district that is 
largely a poor area. We have the pressures of population 
growth, the pressures of an economy that is challenged, and, 
therefore, people depend on public transportation, so $5 
million to replace buses would be tremendously appreciated. It 
is a real priority for people that do not have any other means 
to move around.
    The last issue, and again I appreciate the support that you 
have given the 16th District in the past. We do not have the 
luxury of 20 Members of Congress or so that are on a corridor. 
I am kind of the sole person in the 16th District, being as far 
west as I am, so I would ask your consideration for half a 
million dollars to do an initial study to consolidate into the 
feasibility of an intermodal or rail system in that part of the 
Texas.
    It is imperative as we talk about a long-term strategy to 
provide for the west Texas/southern New Mexico region an 
integrated intermodal system that would facilitate the movement 
of trade and cargo, again largely driven by the success of 
NAFTA and our ability to be able to handle it in a more 
effective and efficient manner.
    As always, I appreciate your support on these issues. I am 
available to talk or clarify any of these priorities. There are 
a number of things that we could give you by way of statistics, 
but I think that is a thumbnail sketch of critical 
transportation projects that we would ask the committee to 
support.
    Mr. Rogers. I thank you, Mr. Reyes. That was a fine 
statement. We will make the written statement a part of the 
record.
    Mr. Reyes. Thank you so much.
    [Prepared statement of Hon. Silvestre Reyes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

       SAN ANTONIO, TEXAS, TRANSIT, HIGHWAY, AND AIRPORT PROJECTS


                                WITNESS

HON. CHARLES GONZALEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Rogers. Mr. Gonzalez.
    Mr. Gonzalez. Mr. Chairman, thank you very much. Mr. Sabo, 
it is always a pleasure to see you.
    I truly appreciate the opportunity of addressing you this 
morning. My constituents recognize the importance of the 
testimony in your consideration. I have broken down our 
priorities and will go over them and summarize them quickly.
    The first thing is the VIA Metropolitan Transit bus fleet 
modernization. VIA is our public transportation system. They 
service 1,200 square miles of San Antonio's metropolitan area. 
They have been historically recognized as one of the most 
efficient transit systems in the entire nation. Obviously we 
have an aging bus fleet. Twenty-five percent or more of the 
population in my district is at poverty or below poverty. We 
have a very high ridership.
    What is of equal importance is that San Antonio is the 
largest metropolitan area, I believe, at 1.3 million that is 
still in compliance with the Clean Air Act, so this goes a long 
way to remain in compliance. It is not an easy thing to do.
    We are asking for $9.75 million from the Federal Transit 
Administration Bus and Bus Related Facilities for VIA to 
continue to upgrade and replace their businesses with 
environmentally friendly buses and more efficient buses.
    The second request is VIA's Job.Access and Reverse Commute 
Program. We are asking for $1.25 million in Job Access and Reverse 
Commute Program funds. This is simply to allow access to the employment 
opportunities for all those individuals that we have in the Welfare to 
Work Program, which is doing well in San Antonio.
    If you are ever in San Antonio and you see someone sleeping 
on a bus bench, you may assume that that is a homeless person. 
Do not make that assumption. It is just somebody waiting for 
the bus because in San Antonio we have a huge medical 
facility--I can tell you there are five hospitals, a teaching 
hospital, a county hospital--that employs thousands of 
individuals in the low income bracket.
    We also have a tourism industry, if you have ever been to 
San Antonio, that is huge. The entire downtown area has to be 
serviced, as well as the outlying area where the medical center 
is located. These individuals obviously have very strange 
working hours. As much as we try to coordinate it, we cannot. 
If you are in the downtown when the buses are not running, 
these individuals basically are waiting around, and they will 
sleep on the bus benches.
    The next is the Freeport Business Center, which is a 
redevelopment project that is located in the State Enterprise 
Zone. When this is completed, it will create 3,000 new jobs. 
This is also in the most economically disadvantaged area of San 
Antonio.
    We are asking for $2 million from the National Corridor 
Planning and Development Program. This whole project will take 
about five years and a total of about $5 million. It is the 
only highway construction project to be approved by the city's 
metropolitan planning organization. It is supported by the 
mayor, all local, state and federal officials from San Antonio.
    Fourth, just as important, is Kelly USA. It is a new road. 
It is the new loop road. We are asking monies from the National 
Border Planning and Development Program and Coordinated Border 
Infrastructure Program. Kelly Air Force Base closed down 
officially last year. We lost a total of nearly 19,000 jobs.
    We are presently redeveloping Kelly. Of course, it is going 
to be still an aircraft maintenance, and it is going to be a 
depot, but it is also a center for international trade. In 
order to do that, we need access to some of the main 
thoroughfares and to the runway which we will be jointly using 
with the Reserve component of the United States Air Force.
    Why this is so important is because obviously an Air Force 
base is built in a very restricted mode. Now that we are 
opening it up as a public/private enterprise it has changed its 
whole mission. This road is vital to the redevelopment of 
Kelly.
    We are seeking funding, and $8 million out of an 
anticipated $81 million in letter of intent funds for the first 
year funding of airport improvements at our international 
airport. If you have ever visited San Antonio, it is a large 
city, yet the airport has not had any substantial improvements 
in some time. We are now looking at capital projects, runway 
and taxiway improvements, and these would be the initial 
monies.
    Again, I thank you very much for your consideration, and if 
you have any questions.
    Mr. Rogers. The former Kelly Air Force Base. Who owns that 
now?
    Mr. Gonzalez. The City of San Antonio, sir.
    Mr. Rogers. And you are developing it. What are you 
developing?
    Mr. Gonzalez. Well, it is actually multi-purpose. It is not 
just warehousing and distribution point. We actually have 
educational facilities there for aircraft maintenance 
individuals because Boeing and Lockheed have located there, so 
we have that component of modification, retrofitting and 
maintenance.
    We are also doing the international trade. We are less than 
150 miles from the Mexican border obviously. One of the biggest 
manufacturing areas in all of Mexico is 325 miles away, so when 
you start talking about the commerce that will be coming 
through, San Antonio is geographically situated at a point 
where you are going to have a distribution point, so we are 
doing just about everything under the sun.
    Mr. Rogers. Okay. Thank you very much.
    Mr. Gonzalez. Thank you.
    [Prepared statements of Hon. Charles Gonzalez and Charles 
Shannon follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 14, 2002.

               HUNT COUNTY, TEXAS, THE CONNECTION PROJECT


                                WITNESS

HON. RALPH HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Rogers. Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you, and Members of the 
subcommittee. I thank you for the opportunity to testify here.
    This request is for an operation they call The Connection. 
It is a rural public transit district that is in the 
Department's area of Hunt County, which is an adjoining county 
to my home county. My home county is Rockwell County, which is 
the smallest county in 254 counties in the State of Texas, but 
it is still considered somewhat semi rural and in need of this 
type service. Hunt County adjoins us.
    The Rural Public Transit Department of the Hunt County 
Committee on Aging, or they call it HCCOA, serves Hunt and 
Rockwell Counties. The connection provides demand response 
service, including rural areas of the counties for employment, 
job training, service, medical and consumer access.
    Mr. Chairman, it is the only public transit system in these 
two counties, and the demand for public transit continues to 
increase in our area. This has recently been reflected by an 
increase of approximately 1,000 trucks per month, an increase 
when compared to last year. Public transportation is very 
viable and certainly also vital to the mobility of those with 
no personal or limited personal transportation.
    HCCOA and/or The Connection is asking for an earmark in the 
amount of $5 million for the purpose of developing a new 
transit facility to accommodate its growing fleet of transit 
vehicles, to accommodate expanding community services for the 
aging and provide for the future expansion of transportation 
services beyond Hunt and Rockwell Counties.
    It has become necessary for HCCOA/The Connection to obtain 
a new facility due to the presence of asbestos and the 
deterioration of the building's foundation. The building is, we 
are told, beyond repair, and asbestos abatement would be 
required prior to demolition. Demolition is required if and 
when HCCOA vacates the building. Moreover, the existing 
facility is located in a residential community, which is 
inconsistent with the city's land use ordinances.
    Since this new transit facility will serve both Hunt and 
Rockwell Counties and will allow HCCOA to better provide 
critical transportation services to the aging, the disabled and 
the other transit dependent individuals, I would respectfully 
request that you designate this project as a high priority 
project with a budget of $5 million for fiscal 2003.
    I would also like to mention to you that you will be 
hearing from my Dallas area colleague regarding projects in the 
Dallas metroplex to which I also lend my support.
    I thank you for granting me this time and opportunity to 
speak. Thank you for your consideration of this worthy project. 
You are a hardworking committee, and I appreciate having some 
of your time.
    Mr. Rogers. Thank you for your testimony, and thank you 
Texans, all of you. These are all modest requests.
    Mr. Hall. Mr. Chairman, I am sorry I was a little late. I 
let the older Members come here to testify first.
    Mr. Rogers. Thank you very much.
    [Prepared statement of Hon. Ralph Hall follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Let us have Colorado and Nebraska come around. Ms. DeGette?
                              ----------                              

                                          Thursday, March 14, 2002.

     SOUTHEAST CORRIDOR, COLORADO TRANSIT PROJECT BROADWAY BRIDGE 
                        RECONSIDERATION PROJECT


                                WITNESS

HON. DIANA DEGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Tancredo and I 
always love to agree on something, and here we are today to 
agree. It does not happen very often.
    I realize that we are facing a lot of challenges this year, 
Mr. Chairman, but I have two projects I want to talk to you 
about. One in particular has been a priority for a number of 
years, and that is the Southeast Corridor Multi-Modal Project 
or Transportation Expansion Project, but we call it in Colorado 
T-REX.
    T-REX, as you might recall, is part of a broad regional 
plan to adopt light rail throughout the Denver metropolitan 
area. Last year, we successfully completed the southwest 
corridor, which is primarily in Mr. Tancredo's district, but 
partly in my district. Ridership on that corridor is well above 
projections even now.
    This year, the top priority project is continuing the full 
funding agreement for the T-REX construction for the southeast 
portion of the light rail corridor. This is under construction 
right now, Mr. Chairman, and, unlike other requests that we 
have heard today and that some of us are making, we are right 
in the middle of construction of this project, so throughout 
the southeast Denver area the highways are torn up, the 
neighborhoods are under construction. They are moving residents 
out to motels and so on.
    The good news is that just like the other leg of this 
corridor, the project is currently on time and on budget, and 
so what we are here to ask you for today is to continue the 
full funding agreement for T-REX of $92 million so that we can 
keep this construction going and complete this next phase of 
the multi-modal system in the Denver metropolitan area. I want 
to thank the subcommittee for the money that it has put into 
this project. It has been tremendously successful through the 
metropolitan area.
    The final thing I would like to talk about is the 
Interstate 25 Broadway Bridge. We are asking this year for $42 
million in federal discretionary highway funds. Last year, the 
Federal Highway Administration listed this bridge as the worst 
bridge on the state highway system. Believe me, the situation 
has not improved since that time.
    When I last came here last year, an entire lane on this 
major north/south artery was shut down because a part of the 
bridge under the traffic lane collapsed. Even to this day, 
chunks of this bridge are literally falling off, which, of 
course, creates a hazard for the people below. My staff wanted 
me to bring over a piece of the bridge that fell off, but I 
decided that you would take my word that it is really a danger.
    The other problem is the bridge is right at the north end 
of the T-REX construction project, so if we are going to try to 
maintain traffic controls during this important and large 
construction of T-REX, we have to keep the bridge in order.
    Those are my two main requests, Mr. Chairman and Mr. Sabo, 
and I want to thank both of you for all of the work and 
attention you have given to this important project.
    Mr. Rogers. In the President's budget request for the T-REX 
project, he only requested $70 million.
    Ms. DeGette. That is correct, Mr. Chairman. The additional 
$22 million is what was contemplated under the original full 
funding agreement, and it is what would be needed to keep the 
construction of this project under its current time line.
    I had a long discussion with Tom Norton, who is the 
Director of the Colorado Department of Transportation, and the 
problem we have in Colorado, of course, is we have the same 
budget problems as in the federal government, but on top of 
that we have a state constitutional amendment that is going to 
prohibit us from raising any additional taxes on anything, even 
gas taxes or anything, without a vote of the people to make up 
for the shortfall. That is why we are in here asking for the 
full $92 million.
    We realize it is unusual, Mr. Chairman, but given the fact 
that it is under construction right now and that it is moving 
forward, we feel that it is appropriate.
    Mr. Rogers. Do you happen to know what the federal/local 
share split is?
    Ms. DeGette. I do not know that off the top of my head, Mr. 
Chairman, but we can get that information to you.
    Mr. Rogers. We have it? Okay.
    Ms. DeGette. Okay.
    Mr. Rogers. We do not have it handy.
    Ms. DeGette. Mr. Chairman, we will have it to you by the 
end of the working day today.
    Mr. Rogers. The problem we have is we have set ourselves a 
goal on the subcommittee of not funding any project over 60 
percent.
    Ms. DeGette. I understand that, Mr. Chairman.
    Mr. Rogers. I just do not know whether this falls in that 
category or not.
    Ms. DeGette. Yes. The concern I have, Mr. Chairman, as I 
said, is since we are in the middle of construction here any 
delay would be very, very difficult for us.
    We are also working with Secretary Mineta and others to see 
if there is some other way to make up the shortfall.
    Mr. Rogers. Does he have money?
    Ms. DeGette. We do not know, but we always like to mine 
every field.
    Mr. Rogers. If you find some money over there, let me know.
    Ms. DeGette. I will send you the extra, Mr. Chairman. I 
would be happy to.
    Mr. Rogers. Just let us know it is there. Thank you very 
much.
    [Prepared statement of Hon. Diana DeGette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

             SOUTHEAST CORRIDOR, COLORADO, TRANSIT PROJECT


                                WITNESS

HON. THOMAS TANCREDO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Tancredo. Thank you, Mr. Chairman. I will be very brief 
because I think my colleague has covered most of the issues 
that I wanted to discuss.
    I did want to just focus in on the T-REX part of this thing 
as it is a part that serves my district and serves a county, 
Douglas County actually, that was last year, and I have no 
reason to think it is not still, the fastest growing county in 
the United States. The population projections there are quite 
extraordinary. Now, of course, it is a very populous area, and 
it is going to become even more so. Therefore, the need to get 
this project completed on time, on schedule, are very 
important.
    My staff tells me that the entire project is $1.67 billion, 
and the grant agreement is for $525 million to be completed 
over a six year period of time, or at least that is what we are 
thinking was the case. The original first year appropriation 
was only $3 million and was scheduled for a $20 million 
appropriation in year one. That was a $17 million shortfall. In 
2002, the project was funded at $55 million, although it was 
scheduled to receive $60 million, so another $5 million. I 
think that is what we are trying to make up here.
    I must admit that I have become somewhat of a believer 
anyway of the efficiency and effectiveness of the light rail 
projects that are underway. I was certainly a skeptic before 
the completion of the southwest corridor. In fact, as my 
colleague, Ms. DeGette, has indicated, it has become even more 
successful than was originally anticipated. Ridership is far 
higher than we thought it would be.
    The only problem we are having now, as a matter of fact, is 
parking for all the people who are trying to take it. The 
parking areas are being expanded and new places found because 
they are actually running out of parking at almost every one of 
the park and ride places.
    I think we will certainly have the same degree of success 
on T-REX. It is a far more heavily populated area, a more 
heavily traveled area that we are actually working on here. It 
is the main or it is the only actually north/south arterial in 
the state, and it is the link to 225, which is the other major 
arterial. Actually, this area generates one out of every four 
sales tax dollars that we collect in Colorado, so it 
underscores the statewide economic importance of this corridor.
    I think everything else that could be said about this has 
been said by my colleague, so I do not have much more to offer 
except to thank you for your commitment to the project. Thank 
you for everything that has been appropriated. Everything is on 
time and on budget.
    Mr. Rogers. We checked, and the project is at 60 percent 
federal and 40 local, which puts you within our parameters.
    Ms. DeGette. Thank you.
    Mr. Rogers. Thank you very much.
    Mr. Tancredo. Thank you.
    [Prepared statement of Hon. Thomas Tancredo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Bereuter, welcome from Nebraska.
                              ----------                              

                                          Thursday, March 14, 2002.

                       NEBRASKA HIGHWAY PROJECTS


                                WITNESS

HON. DOUGLAS BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Bereuter. Thank you, Mr. Chairman, Congressman Sabo, 
Members of the subcommittee. I appreciate the opportunity to 
testify in support of funding for several projects and programs 
of interest to my constituents and to Nebraska. Following Texas 
and Colorado makes our request modest indeed.
    I want to assure you that even before I became a Member of 
the Transportation Committee three years ago, I had been among 
the strongest supporters for transportation, certainly surface 
transportation, in 24 years. I rival Mr. Sabo. I have always 
voted for every transportation authorization appropriation 
bill.
    I have categorized the request here, one that I am making 
for myself and the 1st District, and then I am listing a number 
of projects that are of interest to several of my colleagues. 
We will provide supporting material as requested on all of 
these, of course, and will have letters of support for those 
that are multi-Member requests.
    I would like to request, first of all, the subcommittee's 
assistance in a $3 million request for the Adler Valley 
overpass in Lincoln, Nebraska. The bridge is an integral part 
of the comprehensive plan to revitalize downtown Lincoln that 
has emerged in a unique partnership between the city, the State 
of Nebraska, a local natural resource district and the 
University of Nebraska-Lincoln. It involves transportation, 
flood control and revitalization. This is a crucial overpass 
that is very important to moving transportation, moving vehicle 
transportation around this project during construction, and it 
will be a permanent part of the project.
    With respect to the TCSP projects, the Highway 35 corridor, 
State Highway 35, is not only an important missing link. You 
have provided assistance generously from this committee before 
for a study and for the corridor study that is now underway. It 
will be completed in about 16 more months.
    We have initial money we hope for some right-of-way 
acquisition, but it is important that this right-of-way 
acquisition be added so that we can protect the route. It is 
not only important to our state, but it provides the missing 
link for transportation from U.S. Interstate 35 from Texas 
through Kansas, through Nebraska on U.S. 81 to the Minneapolis-
Twin City area and to Canada. I think really it should qualify 
for the Canada-Mexico connection, which was authorized for the 
last time, but that was before I was on the committee so we 
will examine that.
    There is also a small request for a road in Seward County 
under the same category, which is a long delayed project and 
one which needs to be moved up in the state's priority system 
if in fact that is possible.
    The Public Lands and Highway Discretionary Program. To my 
knowledge, I have never seen a project in my district under 
this, but this project has been requested and on the top of the 
state's priority list for five years, but because of 
congressional earmarking other projects have always jumped 
above it. It connects with the major community in the area the 
Sac Fox Indian Reservation, which is an Indian reservation 
straddling the Kansas-Nebraska state line.
    With respect to multi-Member requests, following up on a 
previous appropriation for the feasibility study and the 
initial preliminary engineering, a two state bridge project 
between Iowa and Nebraska. It replaces two obsolete bridges. It 
will be endorsed by Congressman Boswell and Terry and Ganske 
and myself as it was when the previous funds were provided.
    The Intelligence Transportation System. The State of 
Nebraska is requesting $7 million to support the deployment of 
additional ITS field licenses, including one in motion in 
Nebraska. The state has committed to providing matching funds 
equal to this request. The request builds upon the grassroots 
development of a statewide joint operations center and co-
location of facilities with the Nebraska Department of Roads, 
the Nebraska State Patrol and the Nebraska Emergency Management 
Agency. Congressman Osborne will undoubtedly speak more about 
this subject in a few minutes.
    Finally, a project in the most rapidly urbanizing county in 
our state, Sarpy County, which is in the district of 
Congressman Terry, but after January 3 will be in the 1st 
Congressional District, which I now represent. Widening of I-80 
in this area is a time thing that pushes us to make this 
request. In order to change the overpass as appropriate during 
construction, we want to eliminate two and replace them with 
one, which would be designed to be an interchange in what is 
the most rapidly developing end of the county.
    Congressman Terry and I will be producing supporting 
information and endorsing this project. I believe my colleague, 
who you are about to hear from, Congressman Osborne, will be 
speaking about a project in Columbus, Nebraska, which is 
certainly important to my constituents just outside that area.
    Thank you again for the past support, Mr. Chairman, from 
you and the subcommittee. I very much appreciate it.
    Mr. Rogers. Thank you. Let me ask you about your first one, 
the railroad bridge.
    Mr. Bereuter. Yes?
    Mr. Rogers. Is Burlington going to help pay for the cost of 
that?
    Mr. Bereuter. They have been, yes, and they will continue 
to. There is also a short line that is involved in that area.
    Mr. Rogers. Do you know how much they are paying or what 
percent they are paying?
    Mr. Bereuter. I do not, Mr. Chairman, but I would be happy 
to provide it.
    Mr. Rogers. Can you get that for us?
    Mr. Bereuter. Okay.
    Mr. Rogers. I would be interested to know what the railroad 
is doing to help.
    Mr. Bereuter. They have been helping on a number of 
projects. I am assuming they are on this one, but I will make 
sure.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Douglas Bereuter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                 NEBRASKA HIGHWAY AND AIRPORT PROJECTS


                                WITNESS

HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Rogers. Welcome Coach.
    Mr. Osborne. Thank you, Mr. Chairman. Thank you for giving 
those of us from Nebraska a little bit of time today.
    I represent a little bit different district than my 
colleague, Mr. Bereuter. It is a very large district, 64,000 
square miles, very rural and relatively poor. We have the three 
poorest counties in the country in terms of per capita income. 
One of the biggest problems we have is transportation issues.
    I am going to present three basic projects that I feel are 
a high priority. The first is widening U.S. Highway 26 to four 
lanes between Scottsbluff and Minatare. That is in the far 
western reaches of Nebraska, a fairly heavily traveled segment 
of highway. For the second year I am requesting $7 million in 
funding from the Federal Highway Administration for the U.S. 
Highway 26 Scottsbluff/Minatare, Nebraska, four lane, six mile 
expressway project.
    This project is part of the Heartland Expressway, which is 
intended to go from Denver, Colorado, to Rapid City, South 
Dakota. Forty miles of this highway has been built south of 
Scottsbluff. This would be six miles to the north and to the 
east of Scottsbluff. As part of the Heartland Expressway, this 
project would improve access to the interstate highway system, 
emergency medical care and overall better access to health 
facilities.
    This project, I guess as all of the projects in western 
Nebraska, is of highest priority primarily because of economic 
development. I would strongly urge support of this particular 
project.
    The second project that is of very critical importance to 
my district is the Kearney Interstate 80/Cherry Avenue 
interchange east bypass in Kearney off of the interstate. I am 
requesting $1.8 million in funding to complete design work for 
the Kearney, Nebraska, exchange.
    Kearney is a growing community of roughly 28,000 people. 
They have a university there. It is the most active community 
in my district. The problem at the present time is there is one 
access to the interstate. Currently the daily traffic volume is 
30,000 vehicles per day, and by 2020 it is predicted that it 
will be 40,000 vehicles.
    We have a couple of issues there. There is a major regional 
hospital serving a great many small communities, and this one 
avenue is the only way that most people can get to the 
hospital. Of course, this is a delay and a very difficult 
problem.
    Secondly, the Army National Guard has a major installation 
in the Kearney area, and getting these people to be able to 
move quickly in terms of bioterroristic activity is important. 
I would like to submit for the record a copy of the letter I 
received from the head of the Nebraska National Guard, Adjunct 
General Roger Lampke, which pretty much states the case for the 
importance of this bypass.
    The third request would be for a Columbus, Nebraska, north 
arterial highway. We are requesting $3 million in funding for 
this particular road project. The City of Columbus has already 
funded and completed 30 percent of the design work for this 
project. I would like to submit for the record letters from the 
mayors of the Cities of Skylar, Madison and Columbus. Skylar 
and Madison are nearby adjoining communities. I think 
Congressman Bereuter already mentioned this project.
    Currently, trucks from Columbus' industrial strip and from 
nearby meat packing plants travel through the city using 
Highway 81 and Highway 30. In 2001, the average daily traffic 
volume on this route was nearly 23,000 vehicles. Approximately 
ten percent of this figure is heavy truck traffic, which goes 
right through the middle of town. The amount of traffic on this 
route is expected to continue to rise as Columbus' industrial 
sector grows.
    The North Arterial Project would enable the City of 
Columbus to divert truck traffic around the city and also 
provide an alternative route to the recently completed $30 
million hospital, which is easily accessible from the proposed 
north arterial route.
    As you can see from my written testimony, I have also 
requested some other projects--the Intelligent Transportation 
Systems, which Congressman Bereuter mentioned, an overpass over 
the Union Pacific Railroad at Lexington. Union Pacific is the 
most heavily traveled railroad route in the United States at 
the present time. Also, a request for development of a central 
Nebraska regional airport facility at Grand Island.
    However, the three projects that I mentioned first and 
emphasized are the three that we feel are really important to 
this district, and we would really appreciate your 
consideration of those projects.
    Mr. Rogers. I thank you, Coach, for that testimony, and I 
appreciate the fact that you are prioritizing because, as you 
know, this year we are running short of money.
    Thank you very much.
    Mr. Osborne. Mr. Chairman, I would ask that my written 
statement be submitted for the record.
    Mr. Rogers. It shall be without objection, and the exhibits 
you requested shall be made part of the record as well.
    [Prepared statement of Hon. Tom Osborne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

SAN DIEGO, CALIFORNIA, HIGHWAY, TRANSIT, AIRPORT, AND RAILROAD PROJECTS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Filner. Thank you, Mr. Chairman. I appreciate your 
listening to us. I appreciate your keeping the railroads 
running on time and back on schedule and we appreciate that 
very much.
    I need you to picture my district as I tell you about our 
transportation needs. I represent the southern part of San 
Diego, the extreme southwestern corner of the nation and 
starting next year the entire California/Mexico border.
    Our first priority of our city, our county, our state is a 
road that will connect a border crossing to our interstate 
highway system, Mr. Chairman.
    Imagine eight years after NAFTA with one-third of the truck 
traffic coming from Mexico goes through my district. There is 
no way, except for city streets, for those 3,000 or more trucks 
that are growing every day to get to our interstate highway 
system.
    State Route 905 which is designed and well forward on 
environmental and everything else, need $293 million for 
completion. We have some local/state resources and perhaps 
federal support for $235 of that. We would like to complete 
that job, Mr. Chairman. It has simply stopped trade for the 
whole nation and it is unsafe for the citizens of San Diego, 
one of the most unsafest roads right now where those trucks 
travel in America.
    Secondly, Mr. Chairman, San Diego is the sixth largest city 
in the nation yet our airport is hardly worthy of that status. 
As a member of local city councils I have been involved with 
airport studies for the last two or three decades. There have 
been 30 studies for where we should put an airport in San Diego 
County but they all have been looking, Mr. Chairman at our 
needs based on highway access.
    With railroad technology advanced to such a level as it is, 
with high speed rail able to travel at 300 miles an hour, with 
the first MagLev train now being constructed in China that will 
connect the city of Shanghai with an airport 50 miles away, I 
believe that high speed rail is the way that we connect urban 
areas to airports in the future.
    I think the best candidate for that on the West Coast is a 
new site for San Diego's airport in Imperial County. Everybody 
in Imperial County wants an airport. Nobody in San Diego County 
wants an airport. Ergo let us connect them with a high speed 
rail.
    I believe that we can fund a feasibility study this year 
and begin to look at solving the air transit needs of a major 
city in this nation and therefore a major part of our air 
transit system.
    Locating an airport 100 miles away, Mr. Chairman, is less 
than 20 minutes by MagLev train, so I think we ought to be 
looking at that and we would appreciate some funding to look at 
that feasibility.
    Lastly in terms of priority, much of San Diego's 
transportation system is built of course around highways, 
interstates. We are taking a new approach towards mass transit 
with a whole new approach of rapid transit use of I will say 
buses, but Mr. Chairman, they are not buses. Most cities have 
subways. We are going to have an above-way. Buses that look 
like subways, that is have many doors on the train [sic] and 
people entering on platforms at grades, and moving along as 
buses, but with their own either fixed, their own dedicated 
right of way or able to manipulate the light system to give 
them access.
    We think a demonstration project of the way this above-way 
would work is extremely important for our mass transit needs in 
the future and we look to the Committee to help us start this 
21st Century answer to our transportation needs.
    Mr. Chairman, those are our priorities. You have our 
written statements. This Committee has helped us with a number 
of items over the last decade since I have been in Congress. We 
look forward to your continued support.
    Mr. Rogers. You were unhappy with our conference report 
last year. Is there a reason for that?
    Mr. Filner. I am trying to remember, Mr. Chairman.
    Mr. Rogers. You registered your unhappiness with our work 
product and I wondered what we had done wrong for you.
    Mr. Filner. If you give me 30 seconds later on in this 
panel I will remember what is the reason.
    Mr. Sabo. I remember.
    Mr. Filner. What was the reason?
    It was the Mexican trucks, sir. This affects my district 
incredibly. As I said, I have more than 3,000 trucks coming 
across the border. They are not by the standards that we have 
in force, either insurance standards, safety standards of the 
trucks, safety standards of the drivers. They are just 
inadequate to meet the safety needs of my constituents and I 
felt very strongly about them, Mr. Chairman.
    [Prepared statement of Hon. Bob Filner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

        ORANGE COUNTY, CALIFORNIA, CENTERLINE LIGHT RAIL PROJECT


                                WITNESS

HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Chairman and Ranking Member Sabo, and I think that is 
all we have here today.
    As you know I am from Orange County, California. We have 
six representatives from that area. This gives you an idea of 
how much that area has changed since I first arrived there and 
grew up.
    For example, my own home town of Anaheim when I started 
there, had about 35,000 people. Today there are about 320,000 
people. It is a growing metropolitan area, no longer the 
suburban or bedroom community that most people imagine. In 
fact, by the year 2025 we think we are going to have at least 
600,000 more residents, 130,000 more homes, 530,000 more jobs, 
and 300,000 more cars than we have today.
    I bring this up because you know in Orange County we also 
have the widest highway, freeway, whatever you want to call it. 
In our area we call it a freeway. It's 26 lanes wide at the 
interchange of the 405 and the 5.
    We are very car dependent. But today I am before you to 
talk to you on behalf of the Orange County CenterLine light 
rail project. It would be the first light rail project that we 
have. It is needed to meet the mobility challenges that lay 
before all of us there in Orange County.
    My particular district is the center of that county and 
that is where the bulk of the density of the people are.
    As a county, across the nation we are the fifth most dense 
in population compared to land.
    So it is a very important project, this project we call the 
light rail project.
    We have identified several priorities for Orange County. We 
call them the Power of Ten. They are strategic, a very 
strategic blueprint for what is happening in Orange County.
    An important component of all our transportation priorities 
is this light rail project.
    The CenterLine is an 18 mile, 22 station light rail system 
from Orange County's central business corridor between the 
cities of Santa Anna and Irvine and through the city of Costa 
Mesa. There are approximately 407,000 jobs currently and 
460,000 residents who live and work within two miles of that 
alignment that we have sectored out.
    With population densities as high as 124,000 persons per 
square mile, we are only exceed by San Francisco in the Western 
United States.
    The CenterLine is expected to carry an estimated 30,000 
daily riders on opening day and 45,000 daily riders at maturity 
in 2025.
    It is expected to be 85 percent elevated and 15 percent at 
grade, and it is really intermodal. It will connect Santa Anna 
Regional Transportation Center in the north and the Irvine 
Transportation in the south. The system will also serve the 
station at John Wayne Airport that has now 7.8 million annual 
passengers.
    In addition to that, the stations will be located at the 
Santa Anna Civic Center, the county seat of government, where 
we also have our federal buildings, as well as most of all of 
our court system located right there at that line.
    With the Bristol Street residential and commercial area, 
South Post Metro Shopping Arts and Business Center, and the 
Irvine Spectrum business and commercial center, all our high 
tech community of Orange County would be on this line.
    In addition to that, the Santa Anna College with 30,000 
full time students and our own University of California at 
Irvine with 17,000 full time students will also be added onto 
that line hopefully in a subsequent alignment.
    The total capital cost of the CenterLine in 1999 dollars is 
$1.5 billion.
    Specifically, half of the cost we hope will come from new 
starts monies, but the other half is going to be coming from 
state funds. In particular, we have been taxing ourselves on 
the local level and setting aside monies to build this light 
rail system. We have had now for over 15 years Measure M which 
is a sales tax that we have collected. While we have spent some 
of that to widen freeways, as I mentioned earlier, we have been 
setting that aside to build this light rail project.
    We also have some Proposition 116 funds from the City of 
Irvine and of course our state transportation funds.
    In order to advance the project through the PE I am 
requesting $18 million be included by this Committee in the 
fiscal year 2003 appropriations bill.
    In closing, Mr. Chairman, the CenterLine is really the 
right tool for the right job. We need this for Orange County, a 
very densely populated corridor connecting major 
transportation, shopping, employment and entertainment venues.
    I will be happy to answer any questions you might have.
    Mr. Rogers. This project has a lot of great potential, as 
you have said. There are hundreds like it around the country 
competing for alternative analysis money at the very beginning 
phases of a project.
    We are so short of that for mass transit that last year we 
did not fund any, with federal dollars, any alternatives 
analysis stage projects, those in the very beginning phases of 
development. Instead we relied upon the states to use a lot of 
the formula monies we give them for mass transit to be used for 
these preliminary analyses like yours is now. The State of 
California got $158 million last year for that very purpose. In 
fact California gets 14 percent, California got 14 percent of 
all the monies last year.
    So I would hope that you would talk with the California 
state people about using those formula monies we gave them to 
do this preliminary work. After it gets past preliminary and we 
get into the new start phase, then we can kick in the federal 
dollars.
    Am I clear?
    Ms. Sanchez. I understand what you are saying. So you say 
for the preliminary engineering you would prefer that we ask 
the state--I mean it is not like we have not asked the state, 
by the way. They have been helping too----
    Mr. Rogers. When you get into preliminary engineering we 
can help, but you are in the alternatives analysis phase.
    Ms. Sanchez. No, this is for a PE, this is for preliminary 
engineering.
    Mr. Rogers. But you are not there yet. FTA has not said you 
are there yet.
    Ms. Sanchez. Can you give me one second? [Pause.]
    Ms. Sanchez. I am told that we are past five percent of 
design. We are going to be done with 30 percent of design. And 
this $18 million is actually for preliminary engineering.
    Mr. Rogers. I know what the request is for. What I am 
saying to you is FTA has not told us that it is past that phase 
yet. Unless it has happened in the last two months. The last 
report we got from FTA in January was that it is not there yet.
    Ms. Sanchez. I am told that a letter is in the works from 
FTA approving going into the preliminary engineering phase.
    Mr. Rogers. We will take it under advisement.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Loretta Sanchez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

      LOS ANGELES COUNTY, CALIFORNIA, HIGHWAY AND TRANSIT PROJECTS


                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Mr. Sherman.
    Mr. Sherman. Thank you Mr. Chairman, Ranking Member Sabo. 
Thank you for calling us to testify.
    I believe that I am the only member here from Los Angeles 
County. That may reflect that I represent the most congested 
part of Los Angeles County. The projects I have for you today 
are of regional significance and all of them are designed to 
deal with the incredible congestion on the Ventura Freeway, the 
101. Particularly just to the east and a few miles to the west 
of the interchange of the 101 and 405 which is the sixth 
busiest interchange in America but I would testify the most 
frustrating and congested of all the interchanges in this great 
country.
    The first two projects are highway projects designed to 
provide for freeway alternatives. The first is on America's 
best named boulevard, Sherman Way, and the purpose here is to 
spend $500,000 to improve the median and to provide safety for 
both those in the vehicles and pedestrians.
    I am told that the Committee is focusing on projects where 
there is a 40 percent local match. As I have detailed this 
project it provides for only a 20 percent local match. If the 
Committee needs to see 40 percent then I need to work on my 
local people to make sure that we achieve what your standards 
call for.
    Mr. Rogers. Go to work.
    Mr. Sherman. We will.
    The second is a similar project, the intersection of Balboa 
and Victory. This is both an access to the 101 interchange and 
an alternative to ever getting on to the Ventura Freeway 
interchange, depending on whether you are going east/west or 
north/south. What I was going to ask for was $1.82 million 
federal dollars. If we need to meet the 60 percent/40 percent 
ratio we will have to get a little bit more local. We have come 
very close to the 40 percent on this project.
    There are some quarter million residents that live close to 
this intersection that would be benefitted by this project.
    The second two projects are transit projects and they are 
both park and ride projects.
    The San Fernando Valley has about 1.5 million people. The 
red line subway is the only subway station we have, it comes 
into the southeast corner of the valley. To make that subway 
available to the people of San Fernando Valley we are now 
working on two bus lines that are innovative and that parallel 
the Ventura Freeway so people can stay off that freeway and 
still get to the red line station.
    The first has done the impossible already. It is the 
innovative Metro Rapid bus line along Ventura Boulevard just 
south of the Ventura Freeway. It has reduced the travel time by 
23 percent, increased ridership by 38 percent. It has done the 
impossible. It has got Los Angelinos to get out of their cars 
and into rapid transit.
    What we need, however, is park and ride facilities so 
people can at least get to this innovative bus system. It is a 
system that holds the traffic lights for an extra ten seconds 
and does a number of other things designed to make sure that 
the bus moves more quickly than it has in the past.
    The second park and ride facility I am seeking $1 million 
for a park and ride facility at the western terminus of what 
will be a dedicated bus way, another innovative approach where 
we are creating a road bed exclusively for buses. This 14 mile 
corridor will be operating by 2005. All the approvals are 
there. The money is there to build it. Now we have to allow 
people to park and ride and that is why I am asking for those 
funds.
    I believe these are projects of regional significance. They 
affect the very congested Ventura Freeway.
    Finally, at the end of my testimony I have indicated a need 
for $180,000 for rail highway crossing safety. These projects 
must be of regional significance because they are not even in 
my district but just to the east of it for the most part.
    Thank you for your time.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Brad Sherman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

        SOUTHERN CALIFORNIA HIGHWAY AND HIGH SPEED RAIL PROJECTS


                                WITNESS

HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Mr. Baca.
    Mr. Baca. Thank you Chairman Rogers and Ranking Member Sabo 
for allowing me to testify on the important and critical 
transportation needs of the 42nd District and my region.
    Chairman Rogers, the Inland Empire is not only the most 
rapidly growing region in California, but it is among the 
fastest growing areas in the nation.
    The expansion of Ontario Airport will mean additional 
traffic congestion in the Inland Empire. We all know that El 
Toro will not expand the airport facilities nor become 
operational, which means that the flow of the traffic going 
into Ontario International Airport will increase exponentially 
in the years to come.
    We are currently the hub of the trucking industry in the 
Inland Empire and our transportation and infrastructures and 
interstate highway systems, roads and rails in the 42nd 
District are no longer adequate to meet the current demands, 
much less track future growth.
    Next an example of what our region is up against is 
illustrated in the reconstruction of Interstate 10. The 
Riverside Avenue interstate. I respectfully ask the Committee 
to consider appropriating some portion of $11 million in 
federal funds that will be needed by the city of Rialto for the 
reconstruction of the I-10 Riverside Avenue interchange. This 
is an important project to drastically improve traffic flow. 
This will include overall crossing structures, widening 
modifications, traffic signals and a host of other activities 
related to the project.
    Last year the subcommittee funded $500,000 for the 
important high priority list on the IT project. Another good 
example is the need for an over-crossing of Interstate 10 at 
Cypress Avenue in Fontana, California. Again, this is where the 
hub of the trucking industry is all at. It continues to grow.
    Mr. Chairman, the residents of Fontana, California live in 
a city literally divided by Interstate 10. There is a northern 
Fontana and southern Fontana and there are only three 
interchanges to cross the freeway. Often the residents need to 
travel for eight miles to the next interchange in order to be 
able to cross to other portions of the city.
    This is a public safety nightmare. This not only affects 
commercial residential traffic but also the emergency service 
like police, firefighters, ambulance service. The amount of 
federal funds being sought is $2.5 million.
    In the upcoming weeks I will be providing members of the 
subcommittee detailed background of information on this and my 
other requests. The cities in my region are also working in 
cooperation to increase the quality of life in the Inland 
Empire with projects such as the Interstate 10 Strategy Goods 
Movement Corridor Needs Assessment Study. Our communities are 
experiencing severe traffic congestion and this impacts 
particularly the freeway interchanges. The impacts are a result 
of growth and inconsistent access capacity at the I-10 freeway 
and the cities of Fontana, Rialto and Colton. I ask the 
subcommittee to please consider the request for $1 million to 
create a study on how to better address the problems that are 
affecting our region.
    Another critical project is the need for a Transportation 
Management Center in the Inland Empire. This project is 
supported by Members of Congress from my region such as 
Representatives Lewis, Dreier and Bono. The Inland Empire with 
its ever-increasing importance of commercial traffic to and 
from Los Angeles, our skyrocketing population growth, because 
of affordable homes in our area is certain to need significant 
resources in transportation infrastructure. The Traffic 
Management Center request comes not only from myself but also 
from the San Bernadino Area Governments, otherwise known as 
SANBAG.
    A federal appropriation of $3 million towards this project 
would greatly help lessen traffic. I ask the subcommittee to 
consider this important project.
    In addition, the city of Colton wishes to construct an 
alternative fueling site. I am requesting $1.2 million in 
federal funds for this project.
    And I ask the subcommittee to consider funding 
infrastructure improvements for the Santa Fe Depot historic 
site in my area. Restoration of this historical Santa Fe Depot 
building is underway. The next step is to integrate neighboring 
uses and create a neighborhood identity for the surrounding 
area reinforcing the architectural context of the depot.
    I look forward to reserve the past glory of the historical 
Santa Fe Depot and hopefully you will consider funding it. We 
are asking $3 million in federal funding for this important 
project.
    Also, high speed rail is important to our region's future 
growth, the MagLev is very important as you look at the Alameda 
Corridor and the need to take vehicles off our overcrowded 
roads. The MagLev line from Los Angeles to the Inland Empire is 
the future of our region.
    I ask that you please consider these important projects. 
You have my written statements that have been submitted for the 
record.
    Mr. Rogers. The city of Colton you say plans to construct 
an alternative fueling site. Is that a gas station? [Laughter.]
    Mr. Baca. No, it is not a gas station, but it is a natural 
gas station.
    Mr. Rogers. What is it?
    Mr. Baca. It is an alternative fueling site along the 
interstate which has solar electric charging of the park and 
ride facilities and clean natural gas fueling. That is what it 
would be.
    Mr. Rogers. Is this to refuel buses? Cars or buses or----
    Mr. Baca. Solar electric charging stations that are needed. 
Our region is now turning to the use of natural gas fueled 
buses, for example, the Ontario Unified School District, and 
other school districts are using these buses. We need refueling 
facilities that meet our increased needs.
    Mr. Rogers. We need to look at that. We will check it out.
    Is it true that the San Bernadino Area Government, the 
nickname for that is SANBAG? [Laughter.]
    Mr. Baca. That is correct. It is formulated from both San 
Bernadino and Riverside governments. Congressman Calvert, Jerry 
Lewis, Mary Bono, Gary Miller, now Dreier, and myself.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Joe Baca follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

          SAN DIEGO, CALIFORNIA, TRANSIT AND HIGHWAY PROJECTS


                                WITNESS

HON. SUSAN DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Davis. Thank you Chairman Rogers and Ranking Member 
Sabo. Thank you for giving me the opportunity to testify today 
about San Diego's transportation priorities.
    I first want to thank you for your commitment to San Diego. 
In fiscal year 2002 you invested $61 million in San Diego's 
transit system and $7.5 million in highway projects in non-
formula funds. We could not build these critical infrastructure 
projects without your assistance and I want to thank you for 
that.
    I am here today to ask you to continue investing in San 
Diego's transportation infrastructure by funding two important 
transit and two important highway projects in fiscal year 2003.
    The first project is one you know well. It is the San Diego 
Trolley Mission Valley East Extension. San Diego's 
congressional delegation and this Committee have been working 
together since 1998 on funding the Mission Valley East 
Extension. To date you have been instrumental in appropriating 
$132 million in new starts funding to finally close the gap 
between our existing blue and orange trolley lines.
    Today I am requesting $75 million for fiscal 2003 to keep 
this essential project on schedule. I realize that this request 
is $10 million over the project's full funding grant agreement, 
but I hope that you will look at and review theshortfalls and 
past appropriation cycles and the importance of this project and you 
will agree with me that this is a reasonable and appropriate request.
    I am also requesting $344,000 in TTSP grant funds for the 
community of North Park. North Park lies in the heart of San 
Diego and has really been the focus of much infield 
development. In an effort to upgrade the local transportation 
infrastructure in this growing community local activists have 
developed a proposal for a new transit village. The project 
would improve transit, pedestrian and vehicular movement in the 
area.
    The first highway project that I would like you to please 
focus on and that I am requesting your help with is the 
completion of the environmental impact statement and report on 
how to improve State Route 675 transportation corridor. As this 
Committee may be aware, the San Diego Coronado bridge which is 
otherwise known as SR-75 was constructed to efficiently permit 
access across from the metropolitan San Diego area to the city 
of Coronado, and its primary employer is the U.S. Navy.
    Unfortunately construction of this bridge represented only 
a partial solution resulting in heavy vehicle traffic being 
funneled onto constrained residential streets. Over the past 20 
years bridge traffic has increased by 112 percent. It is 
expected to grow an additional 30 percent by 2015.
    Enhanced security since September 11th has made this 
situation worse and in many cases intolerable. The traffic is 
getting so bad it has actually become a readiness concern. At 
times the delay to get on base is over two hours.
    The cars line up for almost a mile and a half on three 
different streets. In the event of an emergency our Navy 
personnel would not be able to get quickly on base to respond.
    To rectify the situation a committee is pursuing an 
environmental analysis to study and identify the preferred 
solution. Currently a major investment study for SR-75 
transportation corridor is underway. The total cost of this 
study is $4 million with the city of Coronado committed to 
funding $2 million of the required amount.
    I am hopeful that you will take a look at this and agree 
that this is also a worthwhile transportation investment.
    Finally I want to simply note my support for a critical 
project that my colleague, Mr. Filner persuasively told you 
about, and that is State Route 905.
    State Route 905 is the missing link in our border 
infrastructure and its completion will improve mobility and 
trade in our region.
    I want to thank you very much for your time consideration. 
In addition to my testimony today I will submit a written 
statement for these and a few other projects.
    I am looking forward to working with you on San Diego's 
highway and transit priorities.
    Thank you very much.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Susan Davis of California 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 14, 2002.

                SAN DIEGO, CALIFORNIA, HIGHWAY PROJECTS


                                WITNESS

HON. DARRELL ISSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Mr. Issa.
    Mr. Issa. Thank you.
    Mr. Rogers. And bear in mind, we will make your written 
statement part of the record. You do not need to read it, just 
summarize it for us.
    Mr. Issa. Thank you, Mr. Chairman. I appreciate my full 
statement being placed in the record.
    Although my full request includes a number of highway 
projects similar to my colleagues here, I would like to 
emphasize a couple of projects that are my highest priority and 
they are relatively new to this Committee.
    I know that each Member that comes before you will tell you 
the same thing. I have such a high growth area, I have a high 
impact area. I can only say that in reapportionment I have the 
greatest number of voters lost. So everyone can have their own 
definition, but my district that I am asking for funds this 
year was the one that had over 300,000 excess voters. Not 
excess in my opinion, but excess in the constitutional 
definition.
    With that, what has happened in my district over the years 
and the three that I would like to speak very quickly on are 
all interchanges.
    Historically when you look, and my colleagues would all 
echo this, when you look at Southern California which is one 
big highway, a lot of it is the I-5, the I-15, the I-405. These 
are highways that lead off in many directions and a great deal 
of the traffic, especially coming from Congressman Filner's 
district, the Mexico traffic continuing far north and far east.
    My challenge is that as we have widened these roads, and it 
has always been the highest priority to widen, widen, widen, 
what we have not done as our population has grown is to build 
the off-ramps necessary for the people who actually take these 
roads and live in the area.
    So the newest of my projects and my personal highest 
priority, also CalTrans' highest interchange, CalTrans 
considers this one of the highest priority interchanges needing 
attention in the region, has been left off the list in prior 
years. And Congressman Packard I know was very aware of the 
problem. As a matter of fact he waited in those lines for 15 or 
20 minutes if he happened to be going north at 4:00 o'clock. It 
was left off the list mostly because it is very expensive. Our 
request is for $8 million this year That is a down payment to 
do the mitigation and environmental work on an off-ramp that 
happens to go right next to a lagoon. And CalTrans did not even 
do the study in the past. They kept putting it off, putting it 
off because they knew it was expensive and they knew it was 
environmentally difficult.
    This impacts North San Diego County and ultimately has 
become a safety hazard for people on the 5 heading north 
because cars line up at certain times of the day for, well not 
for hours but for hours they are lined up with 20 to 40 minute 
waits to get off of the Interstate 5 onto the 78. That is the 
reason this is a long term project, it is only going to get 
worse over the years which we are studying and in this case 
engineering, mitigating and building. But if there is any 
project that is of extremely high priority that is mature 
enough for me to bring to you this year it is the Interstate 
578 corridor.
    Unfortunately, and I will be bringing it to you next year, 
the 78 I-15 corridor is actually equally bad, does not have the 
mitigation problems, but CalTrans was not able to do their work 
in advance so that I could bring it to you.
    The second and third one are both in Temecula which is the 
highest growth area. This is the area that gave me most of my 
population growth. It used to be a bedroom community. It is now 
very much becoming an urban area in its own right and a fairly 
high tech one. It includes Guidens and a number of other high 
tech, the Vice President's stent was produced right there in 
Temecula. I think they are going to have an oversized one 
mounted so we can all see it. They are very proud.
    Mr. Rogers. In an undisclosed location.
    Mr. Issa. This will be the disclosed location of the stent.
    But these are more modest. The 15 Cherry Street south bound 
ramp is $3 million. That is out of $11.5 million for the total 
project. We are going to be using state and local funds.
    The other one also in Temecula is Interstate 15 which is 
the fastest growing northbound interstate in California and 
this is where it goes off to another major highway, 78.
    It is $4.5 million, that is half of the cost. We will be 
picking up the rest of the 49 million cost.
    Those are my three highest priorities. They are all 
interchanges. They are all different than we historically have 
done in Southern California. We keep talking about more lanes, 
more lanes. This is about getting people on and off the roads 
efficiently so we do not create the bottlenecks that ultimately 
lead to those 200 car pileups you often see.
    Thank you, Mr. Chairman.
    Mr. Rogers. How large is Temecula?
    Mr. Issa. Temecula is now, the greater Temecula area, 
Temecula Marietta is about 260,000 for the metro area. The city 
itself is I think 145,000. This was unincorporated when I moved 
to the region 15 years ago. For a long time all it did was 
supply people who drove from inexpensive housing into San Diego 
County. Temecula is actually in Riverside County, but the 
traffic pattern historically has been mostly from Riverside 
County in this case into San Diego which is why the southbound, 
all my requests tend to be southbound coming out of Temecula.
    Mr. Rogers. Okay, thank you very much.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Rogers. California, you did good.
    Shelley Berkeley, Mr. Blumenauer and Mr. Wu, Mr. Larsen.
    Mr. Blumenauer, you are recognized.
    [Prepared statement of Hon. Darrell Issa follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

             PORTLAND, OREGON, TRANSIT AND HIGHWAY PROJECTS


                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Blumenauer. Thank you, Mr. Chairman. I always try and 
come early to these hearings to get a flavor for what you and 
Mr. Sabo must deal with. This clearly must be one of the most 
difficult jobs in Congress.
    I will heed your admonition. I know I have submitted a 
written statement for the record. I will augment that with the 
five priorities that the Committee has generously allowed for 
submission, and I will be speaking less than five minutes.
    I want to do a couple of things if I could in terms of 
providing the context for the requests that we are making to 
the subcommittee.
    First and foremost Mr. Issa's notion of Southern California 
being one large freeway, I am talking about the multiplier 
effect in terms of what happens with these projects.
    We have attempted in our region to offer up a slightly more 
constrained effort. We have been growing rapidly as well, but 
we have been focusing on things that are less expensive 
alternatives. We have come before you in the past. In some 
instances there were things that we warranted we would do 
locally. In fact this last year we have opened two rail 
projects that were funded without new starts funding. A street 
car that included 14 percent of private funding and all locally 
funded with a little tiny amount of federal help for planning. 
We opened a new rail line to our railroads that encompassed a 
creative public/private partnership with the Bechtel 
Corporation and we are very proud of these in terms of adding 
to the infrastructure that you have generously helped us with 
in the past.
    We have also attempted, and we have made some difficult 
decisions, and I am joined by my colleague Mr. Wu, to focus 
development where we have invested these federal funds. It is 
modestly controversial at home to be sure, but we think we have 
made some hard decisions to be able to make these dollars go 
further.
    We are here today seeking your attention and hopefully your 
support for number one, the continuation of the interstate 
light rail extension to the north. It is approximately 50 
percent complete. It was the highest rated project by FTA. We 
seek an appropriation of $83 million to deal with simply 
keeping pace with the full funding grant agreement and there 
were some significant shortfalls in 2001 and 2002.
    I am also speaking on behalf of a project that is not in my 
district but again is both innovative and speaks to the whole 
region in terms of seeking some 5309 funds for first year 
construction of a commuter light rail project.
    Also we are working hard to make sure that we are 
increasing the impact of our bus and related bus improvements 
and we have a regional request for $8.25 million for that.
    Last but not least I want to reference investment in the I-
5 trade corridor. We have a requirement in terms of investment 
in federal funds, and the federal government has been very 
generous from the Mexican border to the Canadian border dealing 
with the critical trade route along I-5. There is a particular 
pinch point, perhaps the most serious between Seattle and San 
Francisco. We are working hard, in a bi-state area with both 
the state of Washington and Oregon and we are requesting $5 
million from the National Corridor Planning and Development 
Program to do the environmental and conceptual engineering to 
really make this corridor work better.
    I appreciate your hard work. I appreciate your courtesy in 
allowing me to make some comments today and I look forward to 
following up with you and your staff as you see fit.
    Thank you very much.
    Mr. Rogers. Thank you very much.
    [Prepared statement of Hon. Earl Blumenauer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

        LAS VEGAS, NEVADA, TRANSIT, HIGHWAY, AND AIRORT PROJECTS


                                WITNESS

HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEVADA
    Mr. Rogers. Ms. Berkley.
    Ms. Berkley. Thank you.
    I would like to thank you Mr. Chairman and Ranking Member 
Sabo and Members of the subcommittee for this opportunity to 
testify.
    The population of Nevada grew nearly 70 percent in the 
1990s. Nevada is the fastest-growing state in the country. 
Arizona ranks second at 40 percent. The bulk of Nevada's growth 
is centered in the urban Las Vegas area. An average net 
increase of 5,000 new residents a month is absorbed into the 
Las Vegas valley each and every month adding to the 1.5 million 
people already living in southern Nevada.
    In addition travel and tourism is the engine that drives 
the economy. Thirty-six million visitors come to the Las Vegas 
area annually. As our population and the number of visitors 
increase, our highway, airport and mass transit systems become 
more stressed, leading to congestion and air pollution.
    If I could direct your attention to these maps from the 
Regional Transportation Committee, with this map you can see 
the pressure on our transportation systems. The yellow sections 
of the map are areas in which the traffic volume to road 
capacity rate scales tops 90 percent. The red sections 
represent areas in which the traffic volume already tops 100 
percent.
    From this map in 2000 I would like you now to look at our 
projections in 2025 that are shown on this map. The number of 
lane miles for congested roads in Las Vegas will increase 670 
percent. Simply stated, my district is doomed to become a 
gridlocked mess unless we face southern Nevada's transportation 
problems now.
    Nevada's transportation officials have worked tirelessly to 
alleviate congestion and air pollution and the taxpayers of 
southern Nevada have paid billions in state and local levies to 
meet the demands of our growth. The Regional Transportation 
Commission of Southern Nevada and the Nevada Department of 
Transportation have embarked on many projects to ease the 
transportation challenges of southern Nevada. Their work is 
admirable but additional federal help is needed.
    Let me again direct your attention to the projected map.
    Improvements continue on, and let me draw your attention to 
I-15 and US-95, the valley's most traveled arteries. Sections 
of the highways are being widened and interchanges are being 
enhanced. Also construction continues along the Las Vegas 
Beltway which skirts the Las Vegas Valley to ease congestion on 
our highways.
    Despite planning and some of the recently completed areas 
of the southern Beltway down here, 70,000 cars travel the 
corridor per day, a volume that approaches capacity now. And 
let me direct your attention and let you know that in this 
particular area of the Beltway that is the city of Henderson in 
the Las Vegas Valley. Their population increased 147 percent in 
the last decade. We are talking huge numbers and tremendous 
growth in population and commerce continues threatening to 
outstrip even the newest roads in a few years.
    One of the regional transportation----
    Mr. Rogers. Let me interrupt you. We can read your 
statement, you do not need to read it to us.
    What is your request?
    Ms. Berkley. If I can direct your attention towards the 
next paragraph it has exactly what we are requesting, and if 
you would not mind I would prefer to read it so I do not miss 
any of it. Each and every bit of it is vitally important to my 
district.
    One of the Regional Transportation Commission's top 
priorities is the expansion of mass transit options. A fixed 
skyway system which is a public/private partnership and is 
funded in the administration's budget is currently under 
construction. The system will connect resort properties on the 
strip, the downtown properties. That is our first major 
priority.
    In addition the full round of a bus rapid transit project 
will be running in 2003. The optically guided low floor bus 
will run along the Las Vegas Boulevard north corridor. 
Currently 8,000 commuters a day travel this route's traditional 
bus service but this system barely meets the projected need. 
That's our second most important priority.
    Mr. Rogers. I have to shorten things. We have a vote on the 
Floor and we have two other Members that I want to----
    Ms. Berkley. Let me very quickly tell you that in our Las 
Vegas economy 46 percent of our visitors arrive at McCaren 
Airport. We are going to continue, we were the seventh busiest 
airport before 9/11 and are numbers are going back to original 
projections. Annual capacity is 702,000 flights or 55 million 
passengers. If the airport continues to grow at 6.2 percent per 
year as it did in 2000 the airport will reach its capacity in 
2007. We have to continue with our air traffic control tower 
complex, a critical improvement in light of the huge 
anticipated increase in air traffic.
    I hope I have painted a very clear but startling picture of 
the needs of southern Nevada and the Las Vegas Valley. Thank 
you very much.
    [Prepared statement of Hon. Shelley Berkley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

             PORTLAND, OREGON, HIGHWAY AND TRANSIT PROJECTS


                                WITNESS

HON. DAVID WU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
    Mr. Wu. Thank you very much, Mr. Chairman. I will be very 
brief, and I just want to say that I am working hand in hand 
with Mr. Blumenauer on our regional priorities and I want to 
underscore the same three priorities which he did, which is 
interstate max which is 50 percent complete, and we look 
forward to completing this very important interstate rail line. 
A new start, Wilferville-Beaverton commuter rail line. And 
previously $2 million has been appropriated in Section 5309 
funds. We are now seeking a full funding agreement for that 
project. It has been, last year that project was authorized for 
construction.
    Third on our list is improvements in the I-5 trade 
corridor. Mr. Blumenauer is completely correct that the 
principal choke point is at the Columbia River crossing. There 
are additional choke points in downtown Portland and south in 
Wilferville just a few miles south. Studying these choke points 
and addressing them will be absolutely crucial.
    Mr. Sabo, Mr. Rogers, thank you for your kind attention 
today.
    And Mr. Rogers, I just want to say that about six months 
ago you were kind enough to bring me underground in some of the 
tours in New York City. It is very nice now, six months later, 
to be working forward toward positive projects for the future. 
It was a sad moment then and it is good to be getting on with 
things again. Thank you.
    [Prepared statement of the Hon. David Wu follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                   WASHINGTON STATE HIGHWAY PROJECTS


                                WITNESS

HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Larsen. Thank you, Mr. Chairman, Ranking Member Sabo, 
for the opportunity to testify this afternoon. And I want to 
thank you as well, before I get started, for the support last 
year of the requests that I made.
    I will quickly jump ahead to my requests with one note of 
context. The Everett-Seattle corridor which in part I represent 
has been ranked as having the second worst traffic congestion 
in the nation, and since September 11th the northern Canadian 
border has been on heightened alert for terrorists which has 
led to unprecedented waits at the border crossings there. So 
those are the bookends of my district and I want to talk about 
five projects with regards to that.
    The first request is for the city of Mt. Vernon for $1.16 
million to help them finish a multi-modal facility. Mt. Vernon 
has grown over 34 percent in the last ten years and expects to 
double again to 42,000 people by 2015. Perhaps one note to 
illustrate what this growth in traffic means is that the Boeing 
Company is the largest employer in Skagit County where Mt. 
Vernon is located, and yet Boeing does not have a plant in 
Skagit County. You have people commuting from Mt. Vernon south 
into Everett to the Boeing plant. So it is clear that a multi-
modal facility will help us deal with congestion for the south 
and I-5 by putting the multi-modal facility in Mt. Vernon.
    The second is a $2 million request for the city of Granite 
Falls in Snohomish County for the Granite Falls alternate route 
project.
    Last year more than 4.5 million tons of sand and gravel 
were trucked through the small town of Granite Falls to points 
throughout northwest Washington. As we address growth, as we 
try to deal with growth in northwest Washington we are going to 
need sand and gravel and the places where we get that are 
usually beyond our population centers and require us to go 
through population centers. I hope we can help the city of 
Granite Falls in Snohomoish County with that $2 million 
request.
    I would like to request another $2 million for Sunset Drive 
in the city of Bellingham, a rural two-lane highway that is 
severely crowded and can no longer provide adequate service to 
accommodate increasing growth and development in Washington 
County.
    You will note from my comments that there are local, state 
and other federal dollars involved with this project already, 
and they are seeking an additional $2 million in federal 
funding.
    Fourth, somewhat of a continuation of a project from last 
year, a $1.8 million request for one of the major choke points 
in the Central Puget Sound at 41st Street and the I-5 
Interchange. Again, it is a major choke point for I-5. I have 
more details in my written testimony.
    That was third.
    Fourth, to deal with the border, Whatcom County is seeking 
an appropriation of $5.25 million for a secured mobility 
project for the northern border. These projects would enhance 
technology and security measures to support secured mobility of 
commercial vehicles and containers.
    And finally, one project that sort of sits outside this 
entire box is on Cattle Point Road on San Juan Island. San Juan 
County never requests anything directly in terms of 
appropriation except perhaps for ferries because that is how 
you have to get back and forth from the island. Cattle Point 
Road is in danger of being eroded. It cuts through a national 
historical park, so we are trying to get $350,000 through the 
Federal Lands Highway Funds Program to help San Juan County 
complete their efforts and try to save this road and provide 
access to the 180 homeowners who live on the other end of this 
road.
    Thank you all very much.
    [Prepared statement of Hon. Rich Larsen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

        NORTHWEST INDIANA HIGHWAY, TRANSIT, AND AIRPORT PROJECTS


                                WITNESS:

HON. PETER VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky. Mr. Chairman, thank you very much.
    I am here really to thank you, thank Mr. Sabo and the 
Members of the subcommittee for all of your past consideration 
and generosity. You have truly made the lives of people in 
northwest Indiana better.
    You are right, I have submitted my statement for the record 
and essentially have requests for additional funding for an 
underpass in East Chicago, Indiana; additional assistance for 
the South Shore Railroad which is the last electrified inter-
urban rail system in the country; a pedestrian overpass on US 
Highway 12 that connects a number of bike trails; and finally, 
assistance for the airport in the city of Gary, Indiana.
    I do look forward to working with you, Mr. Sabo, and the 
Members of this subcommittee and staff as we proceed.
    Thank you very much, Mr. Chairman.
    Mr. Rogers. You just made a lot of points. [Laughter.]
    Mr. Visclosky. That was my intent.
    Mr. Rogers. We have your statement and we will digest it. 
As you well know, we are in dire straits this year because of 
the trust fund, but we will do the best we can. You are a 
valued member of our committee. We appreciate your being here 
and thank you for your statement.
    Mr. Visclosky. Thank you very much, Mr. Rogers.
    [Prepared statement of Hon. Peter Visclosky follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

               AMERICAN SAMOA/TERRITORIAL HIGHWAY PROGRAM


                                WITNESS

HON. ENI FALEOMAVAEGA, A REPRESENTATIVE IN CONGRESS FROM AMERICAN SAMOA
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I certainly 
want to thank you and Mr. Sabo for allowing me to come and 
testify before the subcommittee, and I sincerely hope that I 
will have as much time as Mr. Visclosky to make my 
presentation.
    Mr. Rogers. Now about that bridge to Samoa, we may not have 
the money this year for that.
    Mr. Faleomavaega. [Laughter.]
    Mr. Chairman, you have my statement for your consideration 
and the members of the subcommittee. I do not want to belabor 
the issue on some of the things that I have requested, the 
substance in my testimony, Mr. Chairman.
    All I can say is that I will really, really appreciate any 
assistance that the subcommittee can give me with reference to 
some of the projects that my district is direly in need of. I 
do not think I need to make any further statement other than to 
say that since the 9/11 tragedy we have an interesting 
situation at our airport where the fuel tanks are situated on 
the surface right next to the airport facility and we 
definitely have a real need to relocate these fuel tanks. I 
think it poses a great danger not only to the public but also 
our airport facility.
    We are hoping very much also that, we are working closely 
with the Army Corps of Engineers to establish a wharf and 
marina in the western part of the island to promote a fisheries 
program with our people.
    With that, Mr. Chairman, I think everything else is in 
place and I do appreciate any consideration that your committee 
would give my requests.
    Mr. Rogers. Thank you very much. Thank you for your 
statement. We will give it every consideration.
    [Prepared statement of Hon. Eni Faleomavaega follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                   MAINE HIGHWAY AND TRANSIT PROJECTS


                                WITNESS

HON. THOMAS ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MAINE
    Mr. Rogers. Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you. I also have a statement for the 
record and I will not read it all but I would like to touch 
very quickly on three projects in order of priority.
    Portland is an old city like other cities in the northeast. 
We are not asking for a big dig, Mr. Chairman, but we have a 
problem. This I-295 connector project for Portland is a very 
high priority. It received this committee's support in fiscal 
year 1998 and again in fiscal year 2002. Basically what is 
going on is there is an interchange off 295 which is connecting 
another part of the waterfront. It will significantly relieve 
traffic on a major road through a residential area in Maine. It 
will open up new land for, very valuable land for commercial 
development.
    We have a hospital that is on one of those through-ways 
across our peninsula in downtown Portland. That hospital cannot 
expand. It is too hemmed in, there is no room to expand there, 
so they are moving down to an area that would be served by this 
295 connecter. It has basically links between the interstate, 
Portland's international marine terminal on the waterfront and 
a commercial terminal on the waterfront, Casco Bay Island ferry 
system, Concord Trailways and the Amtrak system.
    We are asking for $6 million out of a $14 million total 
project. The state of Maine anticipate contributing more than$6 
million in the next biennium.
    The second project is a statewide bus and bus facility 
capital discretionary program. The Committee has assisted Maine 
over the last two fiscal years. We have an urgent need to 
replace some aging buses. The goal is simply to get 50 percent 
of the state transit fleet to within 50 percent of its useful 
life. All of the buses that would be replaced with this funding 
are past their federally established useful life and these old 
buses are costly to run and maintain. They are not reliable. 
They add to air pollution.
    Finally, Mr. Chairman, Amtrak service has just been 
extended from Boston to Portland. It has been a huge success. 
They have had to add an additional car on that particular run. 
We have a 30 mile gap. If we can improve the track and the 
facilities between Portland and Brunswick we will then have a 
line that will run all the way up the coast to Rockland.
    So in terms of development along the Maine coast, release 
of traffic on Route 1, this is an important development and a 
high priority for our state Department of Transportation.
    The other requests are in the testimony, and I just want to 
thank you and Mr. Sabo and other members of the Committee for 
your support in the past and hope that you can be helpful again 
this year.
    Mr. Rogers. Thank you for your testimony. We have it in the 
record and we will give it every consideration.
    Mr. Allen. I appreciate that.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Tom Allen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

               SAN JUAN, PUERTO RICO, TREN URBANO PROJECT


                                WITNESS

HON. ANIBAL ACEVEDO-VILA, A REPRESENTATIVE IN CONGRESS FROM PUERTO RICO
    Mr. Acevedo-Vila. Thank you, Mr. Chairman, and thank you to 
the Ranking Member for this opportunity to testify regarding 
transportation requests for fiscal year 2003.
    I am pleased to report that substantial progress has been 
made on the Tren Urbano New Star rail project in San Juan, 
Puerto Rico. We are all well aware of problematic issues 
including construction quality, delays, and costs that first 
came to light at the end of calendar year 2000.
    I am here to let the subcommittee know that despite these 
serious inherited challenges the new administration of Governor 
Sila Calderon has made considerable progress in the 
implementation of a project recovery plan. Working hand in hand 
with the Federal Transit Administration and the Office of the 
Inspector General the Tren Urbano is essentially back on track 
under [unintelligible] Jose Izauierdo, Secretary of 
Transportation and Public works and Fernando Fagundo, Executive 
Director of the Puerto Rico Highways and Transportation 
Authority.
    Many challenges remain and additional action must be taken 
but progress has been significant. The Highways and 
Transportation Authority prepared corrected action plan in June 
of last year and by December of last year all of the indicated 
actions had been taken. The FTA under the watchful eye of the 
OID recognized the completion of the corrected action plan and 
has indicated that the federal funds which have been withheld 
would be released.
    We received word just yesterday that all of the funds held 
in abeyance will be released. It is a clear indication of 
considerable improvement on Tren Urbano.
    I am pleased to report that the most significant 
construction quality issues have all been addressed. The 
problem with alignment [unintelligible] has been addressed and 
there will be no impact on operations. Concrete columns in the 
[unintelligible] alignment section have been successfully 
repaired and cracks in the central [unintelligible] alignment 
sections columns have been filled. The current Tren Urbano 
leadership has also been successful in resolving the numerous 
contractor claims that have been inherited. These claims are 
either resolved or have been channeled to the proper dispute 
resolution process. As a result of a better relationship with 
contractors progress on the project has increased significantly 
in the last few months. The installation rigged for track work 
which is one critical way of measuring progress has improved by 
more than 100 percent since the middle of January of this year. 
Track work production is now at 350 meters per week, a vast 
improvement over previous construction rates.
    Congestion. A serious problem has been the San Juan 
metropolitan area will be significantly reduced by the initial 
phase of Tren Urbano. There are 4300 cars per squaremile and 
800,000 cars in the metropolitan area. The light rail project will grow 
transit ridership over time and provide an integrated multi-modal 
transportation system with what we call publico water taxis, pedestrian 
and automotive.
    The commonwealth of Puerto Rico is committed to the 
successful completion of phase one of Tren Urbano.
    For fiscal year 2003 I would request that $80 million out 
of the remaining $113 million in the full funding grant 
agreement be appropriated for Tren Urbano.
    While this request extends the administration budget 
request of $59.7 million it is based on the need to provide 
sufficient resources to allow for an increased rate of 
construction to complete phase one of this project that has 
been urged by both FTA and OIG.
    I really appreciate the support and consideration given to 
this project. I look forward to continuing this important 
project.
    In regards to bus transit I am happy to report that 
operations under the Metropolitan Bus Authority in the San Juan 
metropolitan area has improved significantly over the last 
year. The new leadership at the NDA which is also headed by 
Secretary Izquierdo inherited a bus fleet that was out of 
compliance with FTA regulations because more than 50 percent of 
the buses were not in circulation.
    In less than eight months this situation was corrected and 
the NDA is now in full compliance with over 80 percent of the 
buses in circulation. As a recognition of the NDA success and 
to assist in the capital needs in the near future I will be 
requesting $8.1 million in bus and bus affiliated funds to 
purchase 27 new vehicles.
    Finally, I will request $8 million from the ferry boat and 
ferry terminal facilities accounts for the acquisition of a new 
passenger ferry and terminal improvement for the Fajardo, 
Culebra and Viequest facilities.
    Again, thank you, Mr. Chairman and members of the 
subcommittee for this opportunity. I look forward to working 
with you on these important transportation issues,
    Mr. Rogers. Thank you very much. We look forward to it.
    [Prepared statement of Hon. Anibal Acevedo-Vila follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                      NEW JERSEY TRANSIT PROJECTS


                                WITNESS

HON. STEVEN ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Rogers. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman.
    Mr. Rogers. We will make your written statement a part of 
the record.
    Mr. Rothman. I appreciate it. Thank you, Mr. Chairman, 
Ranking Member Sabo. It is a pleasure to be with you. I will 
keep it very brief.
    Thank you for the money that you gave to our region, I 
represent northern New Jersey on the map there. I will walk 
over there in a second. It is a beautiful state, is it not? It 
is the most densely crowded state in the United States. I 
represent one of the most densely crowded regions in the most 
densely crowded state in the United States, right here.
    We were obviously impacted by 9/11. In fact we did much of 
the handling for the wounded right across the Hudson River. 
They were ferried to the site, to the base, of the Statue of 
Liberty where the Jersey first responders--police, fire, 
ambulance and physicians were there to treat the wounded.
    In any event, thank you for the emergency funds. That 
helped deal to some degree with the rebuilding of the PATH 
train center underneath the World Trade Center where the Jersey 
commuters went. That PATH train center no longer exists. The 
commuters had to find another way to cross the Hudson River by 
the hundreds of thousands. So obviously it has created a 
tremendous additional load on the existingother trains and 
access ways across the river.
    The Committee authorized and the Congress passed additional 
monies for more ferries, so that is going to help a little bit.
    I have three projects and then I will leave you. Two of 
them are in the President's budget. One is for the continuation 
of the Hudson-Bergen light rail which the President has in for 
$69.2 million, and we would request that the Committee fully 
fund that item.
    The other is $60 million for the Newark-Elizabeth rail link 
which the President has in his budget as well.
    The other item in my district is for $5 million so that we 
can connect the light rail. I live in the largest county by 
population in the state of New Jersey. There is no light rail 
there now. We want to connect the light rail from my county to 
the Hudson-Bergen light rail.
    Coming down there, if the Hudson-Bergen light rail is 
authorized and funded and the Hudson county Bergen. What we 
want to do is bring the light rail to Bergen, down the Hudson-
Bergen light rail so that can end those routes in Jersey down 
to Washington or across the river. But again access to light 
rails in the largest county by population is the most crowded 
state in the United States does not have that service yet. That 
is a $5 million request, Mr. Chairman.
    In addition to that we will be supplementing our request 
with some highway projects as well, but I wanted to give you 
the big items for the transit.
    I thank you very kindly for all your courtesies and 
generosity in the past.
    Mr. Rogers. Well these are big projects, obviously, big 
dollars, but we recognize the severity of the problem and the 
difficulties that 9/11 has caused your district and state. So 
we will give it every consideration.
    Mr. Rothman. Thank you, Mr. Chairman. I appreciate it. Mr. 
Sabo.
    [Prepared statement of Hon. Steven Rothman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                 JAMAICA BAY, NEW YORK, TRANSIT PROJECT


                                WITNESS

HON. ANTHONY WEINER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Weiner. Thank you, Mr. Chairman. I will be brief. Thank 
you, Mr. Chairman and Mr. Sabo for the opportunity.
    First of all, Mr. Chairman, I hope for the sake of all of 
us testifying here today that Kentucky held on. I know they 
were up by 20 or so with ten minutes left.
    A Participant. Wait a second. [Laughter.]
    Mr. Weiner. I would hate for the mood of the room to change 
if they blow it against Valparaiso. But I can tell you, I have 
the Caps going all the way, Mr. Chairman, and it is just a good 
thing that Minnesota is not in the tournament or I would really 
be in a pickle.
    Mr. Rogers. I want you to know that instead of watching 
that game I am listening to your testimony.
    Mr. Weiner. Really. I was already feeling sorry for you on 
some level, now I really am.
    Let me just offer first the gratitude of our community. For 
two years this committee has funded the Jamaica Bay 
transportation hub which is a ferry landing that does two 
things. One, it brings people in to visit Gateway National 
Park, once it is built; and secondly, it provides services to a 
dramatically underserved community of the Rockaway Peninsula. 
That has gotten dramatically worse since September 11th. The 
Brooklyn Battery Tunnel was knocked completely out of 
commission. The two other East River bridges are now downto one 
lane because they have to check them all for explosives and check 
trucks and the like. So it has now turned a 1.5 hour commute to about a 
three hour commute.
    FEMA has stepped in and said they are prepared to help with 
some ferry funding but what your Committee has done and what I 
hope we can get the third year of a three year program to do is 
to have a ferry landing built so that we can have some place 
for the ferries to light.
    We are about halfway through a $2 million project, leaving 
us about $1 million in needs. On behalf of my community which 
as you know has been ravaged, I represent the district that 
lost more firefighters and police officers than anywhere else. 
We, as you know, shortly after, a month later we had a plane 
crash in Rockaway. This is the community we are trying to 
provide better services for.
    So first my gratitude and my thanks in advance for your 
consideration of this request.
    Mr. Rogers. How many of your constituents did you lose?
    Mr. Weiner. We lost about 119, and in one parish, St. 
Francis D'Sale in Rockaway, we had 41 funerals in that one 
parish because it is a community that has two things going on 
at once. One, it is an enclave of firefighters and police 
officers, and also a very heavy Irish community, and a lot of 
the Cantor Fitzgerald workers lived down there as well. So 
between that and the plane crash people are literally holding 
their heads and saying enough already.
    But this is something the people are very optimistic about. 
This will get people thinking about ferry service, almost by 
necessity, and Rockaway would be a prime beneficiary.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Weiner. Thank you for your 
testimony.
    [Prepared statement of Hon. Anthony Weiner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                CONNECTICUT TRANSIT AND HIGHWAY PROJECTS


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Shays. Thank you, Mr. Chairman and Ranking Member.
    Given that UCON is the second seed if they lose to 
Maryland, go Cats.
    I basically want to just quickly describe to you, my 
statement for the record will be there. But basically I 
represent along the corridor on the other side of what you just 
heard from New Jersey and New York. We are the corridor to all 
of New England. New England has no major port, so all exports 
come down through New York to the other side to be shipped out. 
Any imports that come in come to the west side of the Hudson 
and then basically come through my district which is I-95, a 
heavily traveled area between New York and New Haven.
    We are looking to have you fund the intermodal center in 
Bridgeport, continue to fund it. Continue to fund the 
intermodal center in Stamford. I am going to just highlight 
those two.
    We have a pretty good statement. I will work with your 
staff to go over some of the details. But we are looking to get 
people off the roads and on to our rail line which is there to 
be used if we can get the parking at these garages and if we 
can attract people from the cars back on to rail.
    We have other points mentioned in my statement but I will 
leave that for the record and just say thank you very much and 
let you get on to the other things you need to get on to.
    Mr. Rogers. Thank you for your testimony. I notice in the 
Stamford urban transitway you are requesting 75 percent federal 
funding. We will work with your folks back there, but we have 
adopted, in order to spread what few dollars we have better 
around the country, we are asking that communities fund at 
least 40 percent.
    Mr. Shays. Fair enough.
    Mr. Rogers. This one is at 75 federal, so we will have to 
work to get that down.
    Mr. Shays. I am happy to work with you.
    Mr. Rogers. Thank you very much, Mr. Shays. Thank you for 
your testimony.
    [Prepared statement of Hon. Christopher Shays follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                 VIRGINIA TRANSIT AND HIGHWAY PROJECTS


                                WITNESS

HON. J. RANDY FORBES, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF VIRGINIA
    Mr. Rogers. Mr. Forbes.
    Mr. Forbes. Thank you Mr. Chairman, and Ranking Member Mr. 
Sabo for allowing me to testify before your panel on the 
priorities of Virginia's 4th District. As a new Member I 
appreciate you taking the time to provide my constituents with 
this valuable opportunity. I am just going to summarize because 
I have submitted a statement for you to read for the record.
    First of all I want to thank you for providing funding for 
fiscal year 2000 for the Great Dismal Swamp Corridor master 
plan. A couple of items that are of particular concern to our 
district become that way because of the budget shortfalls we 
are obviously having in Virginia and particularly with 
transportation. Two of them are for the city of Petersburg, and 
I have outlined them in the written statement that I have 
given, but one is for a downtown multi-modal transportation 
center. Petersburg is just one of these old cities that has a 
low income population that is so dependent on bus 
transportation and it does not have any off-street transit 
center now. It relies on two cross streets which obviously is 
very dangerous.
    And very important them is a second request they have for 
the replacement of some outdated motor coaches that are 
currently used by the Petersburg area transit. Ten of those 13 
coaches were purchased ten years ago and they are just becoming 
outdated and dangerous at this particular point in time.
    The city of Suffolk has put in their two major concerns. 
One is a multi-city bike trail which I have highlighted because 
it helps the city of Norfolk, Portsmouth, Chesapeake and 
Suffolk. In addition to that, a $150,000 request for Suffolk's 
greenway and trails initiative.
    The final thing that I would just point out and highlighted 
to you is the Route 17 project which is in Chesapeake. This is 
probably one of the most vital projects that we have had for 
years because it is the number one highway, as I understand it, 
in the country for deaths because it is a road that we have 
needed to widen for several decades now. It is of major 
importance to both the state of Virginia and the state of North 
Carolina, not just for economics but also for evacuations for 
hurricanes, because on the outer banks and all that is one of 
the major evacuation routes.
    Currently as the road is it is not only a dangerous road, 
but also when we have any major storms that road floods.
    In addition to that Route 17 is the Dominion Boulevard 
which is a connector to Route 17 to do that full evacuation 
route.
    I appreciate very much the time you have given me and hope 
you will consider those requests.
    Mr. Rogers. Thank you for a very fine statement. These are 
big and important projects and we will do our best. You realize 
we have a severe problem this year----
    Mr. Forbes. I do, Mr. Chairman.
    Mr. Rogers [continuing]. Our revenues and funding levels. 
But we will do the best we can.
    I have to ask you, could they not find a more happy name 
than the Great Dismal Swamp? [Laughter.]
    Mr. Forbes. One of the things that is interesting with the 
Great Dismal Swamp is of course that is the name that has been 
there. George Washington actually surveyed through there at one 
particular point in time, parts of it. But it is really an 
environmental gym. You do not realize that a swamp can be like 
that, but it is one of the few ecosystems now that people come 
all across the country to come there and actually tour it.
    Mr. Rogers. I hope you understand that--
    Mr. Forbes. I do.
    Mr. Rogers. It was totally in fun.
    Mr. Forbes. Thank you.
    Mr. Rogers. Thank you, Mr. Forbes.
    [Prepared Statement of Hon. Randy Forbes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                     SOUTH CAPITOL GATEWAY PROJECT


                                WITNESS

HON. STENY HOYER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Hoyer. Mr. Chairman, I have talked to you in your 
office, I have talked to Mr. Sabo. I am as excited about this 
project as any project in which I have been involved. It is I 
think a project that if we can complete probably none of us 
will be still serving at that point in time, but will be the 
most lasting legacy this Committee during its term of service 
will leave. Those are pretty broad words.
    I speak of a project not in my district, as you know, and I 
thank you and Mr. Sabo for helping with this.
    Every four years the world watches as our new President 
takes the oath of office on the steps of the United States 
Capitol and then travels to the White House along perhaps the 
most famous street in America, Pennsylvania Avenue. Thousands 
of well-wishers line both sides of this vibrant thoroughfare 
which keeps motorists moving through our capital city. As many 
as go across this bridge, interestingly enough, it moves some 
62,000 I believe is the number of cars per day on Pennsylvania 
Avenue. It offers tremendous commercial and residential 
opportunities and serves as a direct physical link between our 
executive and congressional branches of government.
    However some may not be aware that just a few years ago 
Pennsylvania Avenue was more a national disgrace than a 
national treasure. Before its revitalization, large sections of 
Pennsylvania Avenue could best be described as blighted. It was 
littered with boarded up buildings, it was the home of strip 
clubs and liquor stores. It was the victim of a lack of 
commitment and a lack of vision.
    Today Mr. Chairman and Mr. Sabo, the same commitment and 
vision that burnished Pennsylvania Avenue are being applied to 
the South Capital Gateway, the area that runs along South 
Capital Street and across the Anacostia River to the Maryland 
state line.
    A $500,000 appropriation you approved and worked on last 
year, South Capital Gateway, an improvement study is a 
predicate for positive change and everyone who cares about the 
city thanks you for it.
    The study will help the partners of the Anacostia 
Waterfront Initiative which includes the District government 
the federal government and the community continue their efforts 
to improve the area for commercial, recreational and 
residential activities.
    Specifically it will examine one, how to eliminate 
unsightly over and underpasses and improve pedestrian vehicular 
access. All of you of course are familiar with this access 
because you drive on it to Andrew Air Force Base and back if at 
no other time. I would add as well, King, Queens, Prime 
Ministers, other elected officials, their first entrance into 
Washington usually occurs at this gateway.
    A possible relocation of the Douglass Bridge to the Poplar 
Point which is currently bisected by the bridge which is on the 
east side of the river may be used as a recreation area, in 
addition, methods of linking the Anacostia waterfront community 
to the rest of the great city.
    This is an extraordinary opportunity for all of us who care 
about this, the nation's capital. While the deadline for this 
study is not until September 2003 I am hopeful, Mr. Chairman, 
that you and Mr. Sabo will join me in urging, and I talked to 
Secretary Manetta about just giving a year to this study. This 
study could be done in a year. We should not delay.
    Furthermore, as you know, the revitalization of the South 
Capital Gateway goes hand in glove with the larger vision for a 
revitalized Anacostia riverfront. Where today some only see 
vacant buildings, barbed wire, structural barriers, I see and I 
hope you see as well a grand entrance to our city anchored by a 
waterfront teeming with residential, recreational and 
commercial activity.
    In short, Mr. Chairman, I see a waterfront that is every 
bit the rival of Baltimore's inner harbor and New York's 
Battery Park City.
    Just imagine if Members and staff as well as residents and 
visitors to Washington had access to these opportunities, just 
a ten minute walk from where we sit.
    Please take a look, Mr. Chairman, at the posters that I 
have brought today. They depict that currently exists which you 
have seen. They also illustrate the size of the area we want to 
transform.
    This is St. Louis. The reason for this is to give you the 
scope of what we are talking about in the South Capital Gateway 
Boulevard. That is the Champs Elysees. You will see that it 
covers just about the same area from the capitol to the South 
Capital Street Bridge.
    That is the Boston Commonwealth Avenue. Almost exactly the 
same area.
    This is the Pennsylvania Avenue which was the Pennsylvania 
Avenue Redevelopment Corporation project. Almost exactly the 
same length.
    Lastly, we have East Capital Street. If you drive in East 
Capital Street it is a different kind of street. It is a tree-
lined, beautiful street with a straight shot at the capitol and 
none of us can fail to get goosebumps, at least I do, every 
time--particularly at night with that capitol lighted as you 
come down East Capital Street.
    Only the South Capital Street entrance has been blighted by 
human beings, by us.
    We have a plant, as you know, that belches steam right in 
the line of sight. We have crossed it with highways, we have 
done all sorts of things to obliterate what can be in my 
opinion the most impressive, stirring boulevard entrance to our 
capital.
    This is not in my district. This is in America's capital 
and I hope that all of us can work together on this.
    You also can one artist's version of what the new South 
Capital Gateway can be--We did not get that because we could 
not get it printed up fast enough.
    The Anacostia Waterfront Initiative is for the entire 
community. This is the gateway, but this is part and parcel of 
the entire Southeast/Southwest Corridor.
    Let me make an observation to you that I want you to think 
about, of all the Atlantic coast cities that you know. with the 
exception of a river city or the ocean city, if you will look 
at most cities it is the northwest that is the wealthy part, it 
is the southeast/southwest that is the poor part. Why is that? 
Sewage flows downhill.
    The wealthy wanted to be in the highlands and the sewage 
would flow down into the water. They did not have sewer systems 
at that point in time. So they relegated the southeast/
southwest parts of cities to industrial uses. Now they became 
residential as well in some form because they were not prime 
property.
    So what we have done, Mr. Chairman and Mr. Sabo, is wasted 
an incredible resource and that is the Anacostia Riverand the 
southwest waterfront.
    The Mayor has a vision to recapture that, to give it a 
rebirth. We can be involved in that. It is going to be billions 
of dollars, mostly private sector money as was Pennsylvania 
Avenue Development, but I rode down Pennsylvania Avenue when I 
was at the Reagan Building for the Ireland Fund dinner last 
night. As I left the Reagan building and started to drive 
towards the capitol I thought to myself what a metamorphosis 
Pennsylvania Avenue has had. What an incredible contribution we 
have made to generations yet unborn on Pennsylvania Avenue.
    You and we can do the same thing with this incredible 
opportunity that we have. It is going to cost money and it will 
take, as I say longer I think than the terms that any of us 
will be able to serve, but in the final analysis I think Mr. 
Chairman and Mr. Sabo, we will think this is one of the great 
contributions as public servants we have been able to make to 
our country.
    I thank you for the time. As you can tell, I am excited 
about this project. It is a large project that will make, I 
think, as dramatic a difference as has been made in this city 
including Pennsylvania Avenue, since L'enfant following the 
work of Benjamin Bannicker who designed this great city.
    Mr. Rogers. Do you have a schematic of the proposed----
    Mr. Hoyer. We have some artist's renderings. Unfortunately 
we did not get them and I will get those to the Committee.
    Mr. Hoyer. Mr. Chairman, the Anacostia Water Initiative is 
a much larger, and unfortunately we do not have, Ms. Morrella 
knows--As you know, if you go down the Anacostia River you will 
come to RFK stadium. The Anacostia River up at this point in 
time, if I took a boat ride with you and I did not tell you 
when you were in the city, you would almost think that you were 
in a rural, wild scenic river but for the trash you find there. 
Other than that you cannot see any building, you see wildlife, 
you see fowl, you see geese and all sorts of wildlife. We are 
in the process, some other committees on which you perhaps both 
heard, in restoring the wetlands.
    The Corps of Engineers eliminated the wetlands ironically 
for flood control. We then found out, whoops that was not the 
right thing to do. Congressman Wynn's district, Bladensburg and 
others, we are in the process of restoring that and it is 
really going to become beautiful. We have a marina now in 
Bladensburg. Bladensburg is the site, as you know, where the 
British went up the Anacostia.
    We own 90 percent of this land, the federal government, so 
we will play a big role in it. As you know from your service, 
the Department of Transportation is thinking of building, is 
probably going to build the Southeast Federal Center. The Navy 
has moved some 10,000 people into here. We have commercial 
development going on now along M Street. It is going to be a 
very quality development.
    Eleanor Holmes Norton said we are in the process of giving 
this area, the southeast and southwest part of our city 
rebirth. And I say our city. Sonny and I live outside the city. 
We are from Montgomery County and Prince Georges respectively 
but we are part of the Washington metropolitan area. Just as we 
talk about things in Baltimore, as we find ourselves all the 
time, are concerned what will this do to Baltimore.
    This blight occurred because it was not the kind of area 
that you wanted for residential. You wanted to be up in the 
northwest, and that is what happened. But no city in America 
now allows its waterfront to be used for secondary purposes 
because it is very high value. The gateway will be a critical 
component of that, but clearly just a part.
    Mr. Rogers. What will be the biggest infrastructure change 
that would be made?
    Mr. Hoyer. In terms of the gateway? The study I think will 
have a number of alternatives. One of the possibilities, this 
is South Capitol Street and this is the Douglass Bridge. One of 
the possibilities, Suitland Parkway comes around like this, 
which has now been dualized, as you know, all the way to 
Andrews Air Force Base. We did that, this Committee was very 
helpful in doing that as Mr. Sabo knows over the years in the 
1980s.
    One of the things I think is going to be done is to 
straighten out this bridge. And you get on the other side of 
the Anacostia River, you have 295 coming, and there is a mixing 
bowl there, and it is horrific. So one of the proposals that I 
was talking to the Director of Planning for the District of 
Columbia here, and the highway, we have a new highway, talked 
about in effect unmixing that clog and for through traffic, as 
you know we have through traffic of 295 or 395 underneath the 
west front of the capitol. Having that tie in for folks who 
want to go through as opposed to go to local sites. With this 
being, in effect, a local route into the city.
    There are all sorts of proposals. There is now a major 
excavation going on here where the owner, which is Florida 
Rock, this is essentially already being shut down and Florida 
Rock is going to develop itself major residential and 
commercial sites here. It is being discussed as exactly how 
high the buildings will be, size of homes.
    This will be, I'm not sure where it is, will be a major 
residential developments, Marines have taken over some of the 
field. We are going to have major changes. There is major new 
commercial development going up here, being constructed, which 
is going to essentially upgrade. There is a metro right here at 
this corner. This is, I believe, a Jersey right between Canon 
and Longwood.
    So this entire area which is federal property, Department 
of Transportation, the Navy, is bringing not just the public 
sector but also private sector development there and private 
sector dollars there.
    Clearly what the Mayor and the City Council want to do Mr. 
Chairman and Mr. Sabo is they want to make this a neighborhood, 
this is largely residential, the southwest, they want to make 
this a neighborhood with a river access. As a matter of fact 
this development, you cannot see it clearly on the map, but 80 
feet from the river in is going to be reserved for what is 
called a River Walk. My expectation is, I think all of us who 
work here on the Hill are going to be able to walk, where the 
boulevard will have a sidewalk that will work and you can walk 
on it. Now you take your life in your hands with vehicular 
traffic. Walk down here. There will be restaurants, stores, 
commercial, as well as residential sites.
    When I showed these pictures, and this will essentially 
Pennsylvania Avenue. Which of course has a great shot of the 
Capitol, but you can see, this is President Park, this is the 
Capitol grounds, obviously Pennsylvania Avenue goes that way 
when it's moved around, but you can see it is almost exactly 
the same scale.
    So we have this opportunity, and L'enfant and Bannicker had 
in their plans. The reason they did not develop this is because 
at that point in time there was still an industrial focus 
within the city limits. As we all know there is no more 
industrial focus within the city limits. A, you do not have the 
space; B, it is simply not practical to do. So essentially all 
of this industrial site will be eliminated.
    Now Fort McNair is down here, that obviously will not be 
eliminated.
    Mr. Rogers. A couple of questions.
    Obviously there is going to be some environmental cleanup 
because that is an old industrial area.
    Mr. Hoyer. Yes, sir.
    Mr. Rogers. I would expect it to be substantial, correct?
    Mr. Hoyer. Pretty substantial.
    Mr. Rogers. And two, the Southwest Freeway--Please join us.
    Mr. Hoyer. This is Andy Ulmer who is the Director of 
Planning for the District of Columbia.
    Mr. Rogers. Welcome.
    Mr. Hoyer. Sam, why do you not join us too?
    None of these people can vote for me. [Laughter.]
    Mr. Rogers. We have other Members to testify so we will not 
take too much time here.
    But the Southwest Freeway is a very helpful highway, but 
has sort of acted as a barrier between this part of the city 
and the southeast/southwest, does it not?
    A Participant. Yes.
    Mr. Rogers. Will it still be that way in your dreams here?
    A Participant. The interesting thing is all the freeways 
have acted as barriers. The Anacostia Freeway has acted as a 
barrier to the Anacostia neighborhood. Economic development 
that has taken place here on South Capitol Street has acted as 
a barrier between these two sides. We can only bite off one 
thing at a time. The South Capitol Street Corridor represents 
the earliest and easiest opportunity. Part of the Anacostia 
waterfront, looking at the Anacostia Freeway, and we are 
beginning to look at the freeway as well. But that carries as 
many as 192,000 cars and we have to look very carefully at that 
one.
    Mr. Rogers. What is the interim master plan that has been 
developed for this idea?
    A Participant. We are right now towards the Anacostia 
Waterfront Initiative, developing a plan with the Anacostia 
waterfront going from the southwest waterfront----
    Mr. Hoyer. From essentially Maine Avenue, you know where 
the fish market is, around the point, up to the District line, 
that is essentially at the Arboretum.
    A Participant. Both sides of the river. So also the other 
side where Poplar Point is, so east and west banks of the 
river. We will be releasing that in April, the draft plan for 
public comment.
    This area thanks to the enthusiasm of constant delegation. 
We are going to do, all these started as separate, just the 
whole South Capitol corridor will have its own plan, its own 
study thanks to the resources we are being provided.
    Mr. Rogers. Well congratulations. It is a big and exciting 
project and I see why Congressman Hoyer and all of us are 
plugged into it heavily. I assure you we will give it every 
consideration. I do not think----
    Mr. Hoyer. I do not know that we need money, frankly, this 
year because we got the $500,000. What I really wanted to do 
today is simply to continue the focus. And I really want to 
thank both of you.
    I know it was tough to get the $500,000, we have 250 now to 
get it up and I thank you very much for that. I think if that 
is not quite enough I think short term on that we will come 
with sufficient, I hope.
    But what I want to do is keep us all focused on this 
because it is a project that I think we will all be so excited 
about and so proud of when it is accomplished.
    Mr. Rogers. Thank you.
    Mr. Hoyer. And I think Ms. Morella who I think has 
something else to talk about as well. The entire delegation on 
both sides of the river are supportive of this project.
    Mr. Rogers. Thank you, Steny.
    Mr. Hoyer. Thank you for your time.
    [Prepared statement of Hon. Steny Hoyer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                 MARYLAND TRANSIT AND HIGHWAY PROJECTS


                                WITNESS

HON. ALBERT WYNN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Wynn. Thank you very much, Mr. Chairman, and also to 
Mr. Sabo, the Ranking Member. I appreciate you giving me this 
opportunity to appear before you. For those who might not know 
I represent the 4th District of Maryland which is basically 
Maryland suburbs of the Washington, D.C. area, Montgomery and 
Prince Georges Counties. And so I am here to talk about five 
modest projects that affect my district significantly. But as 
you will hear and what I want to emphasize is that all these 
projects have a regional impact and are of benefit to the 
greater Washington region.
    Two initial points I want to make. First, the Washington 
Metropolitan region suffers from some of the worst traffic 
congestion in the country. There is clearly a need to increase 
efficiency of movement, a decrease in congestion, and 
importantly the expansion of public transit.
    Second I would like to emphasize that the events of 
September 11th in connection with our nation's capital makes it 
abundantly clear that we need a seamless and efficient 
transportation system to alleviate traffic on roads and reduce 
response times for police, fire and emergency personnel, first 
responders in the event of a terrorist attack.
    Having said that let me move directly into the projects I 
would like you to consider and hopefully consider favorably.
    First is a request for $65 million for Section 5309 new 
starts discretionary funds for the construction of the 
extension of the Metrorail blue line from Addison Road in 
Largo, Prince Georges County, into the city. I would emphasize 
at the onset this line will serve the constituents of 
Congressman Ehrlich, Congressman Hoyer, as well as myself. In 
other words, folks coming in from the outer suburbs.
    Last year in House Report H.R. 2299 the transportation 
appropriations bill provided $55 million in funding for the 
project. Unfortunately this was $5 million less than was called 
for under the full funding grant agreement signed in December 
of 2000. The $5 million shortfall was totally unexpected 
considering that the transportation appropriations had both 
chambers provided for the full $60 million.
    This year's request of $65 million is basically for the $60 
million that was in our schedule for this year as well as the 
$5 million we lost in conference last year.
    The second request is for $73 million from Section 5309 new 
starts discretionary funds for various MARC commuter rail 
projects. And again I want to emphasize that these projects 
benefit constituents from as far away as Congressman Ehrlich's 
district, Mr. Hoyer's district as well as our far western 
region. We believe it is very important that we have this 
assistance.
    If I can take a moment and break down what exactly we are 
requesting. First $21.6 million was funds to patch the 
enhancement for the benefit of the MARC which is the Maryland 
commuter rail and the CSX which is a freight service. This will 
allow for improvements to existing track, switches, signal 
systems, and basically allow more freight and passenger trains 
to run on these lines more efficiently on the same corridors.
    With many trains currently filled to near capacity 
ridership is anticipated to increase system wide by about 35 
percent in the next five years. The MARC system is in great 
need of these capacity enhancements.
    Mr. Rogers. What is CSX's share in the cost of improving 
their rail?
    Mr. Wynn. It is my understanding that they would. I do not 
have the specific figure but I would be happy to provide that 
to the Committee.
    The second element of this particular package, the transit 
package, is $25 million used to purchase bi-level rail cars for 
increased ridership capacity on the Penn line and the new 
Frederick extension. During the past five years ridership has 
increased 35 percent on the Penn line to near capacity and 
ridership is expected to continue to run 35 percent in the next 
five years. This is absolutely essential, and again, it serves 
about four congressional districts from the furthest regions in 
western Maryland on into the city.
    The third element of this package of $20 million would be 
used to construct a new center and northbound platform at the 
BWI International airport rail station, creating space for a 
fourth track to meet the transportation needs at the nation's 
fastest growing airport. This again, multi-jurisdictional 
benefit, but since much of that traffic in the absence of these 
improvements would culminate in my district, we certainly 
believe this is of great benefit to the metropolitan area.
    The fourth element is a very modest $5.7 million for the 
intermodal Silver Spring transit facility. This is where all of 
the elements of the transit system converge--the MARC system, 
the Metrobus system as well as the Amtrak. By 2020 44,000 jobs 
will be within walking distance of the intermodal station and 
it will generate high level transit usage. You can basically 
get off MARC, get on Metro, take the Metro into downtown 
Washington, D.C. as well as the bus service again coming into 
the same station, intermodal station. It would basically be a 
transit hub.
    The third element of the package is a request of $6.5 
million to help expedite emergency response time and reduce 
congestion in the Washington metropolitan region. This will be 
funded from federal intelligent transportation systems, the 
ITS. The integration of systems between the different regional 
agencies would help alleviate severe delays experienced by 
commuters in the Washington, D.C. region ranked again as one of 
the top regions for traffic congestion.
    $1.5 million for phase two development of the Prince 
Georges County traffic response and information partnership 
trip center to expand the center's capability to include 
monitoring remote weather stations, coordinating snow removal, 
supporting bus fleet management and sharing emergency and 
incident information with other agencies.
    $1.5 million would be used to connect the region's 
operating agencies, existing communication and fiberoptic cable 
infrastructure. These agencies include the Maryland State 
Highway Administration, the Virginia Department of 
Transportation, and the Washington Metropolitan Area Transit 
Authority.
    $3.5 million of this package would be used for additional 
closed circuit television, cameras, and traffic speed detectors 
to monitor existing gaps where there are no cameras or speed 
detectors on the Washington Beltway, I-495, and I-95 into 
Prince Georges and Montgomery Counties.
    The fourth element that I wanted to talk about in the 
package is a request for $25 million from Section 5309 plus 
invest and sofie funds [phonetic] to improve local and urban 
bus systems in Maryland.
    In fiscal year 2002 the state of Maryland received $8.5 
million in bus and bus replacement funds. Based on theformulas 
used to distribute these funds if the state of Maryland were to receive 
the $25 million Montgomery County, one of my jurisdictions would 
receive $5.7 million and Prince Georges County, the other jurisdiction, 
would receive $750,000 in funding.
    Again this helps alleviate congestion on a regional basis. 
It would support two bus systems that carry approximately 
90,000 passengers each weekday, approximately 24 million 
passengers annually. We think this is, again very important to 
bring together all of our transit elements in an effective and 
as I said seamless system.
    Finally I would like to ask the committee's favorable 
consideration of a very modest request of $5 million for the 
state of Maryland in the transit job access and reverse commute 
fund for services that help low income workers gain access to 
job locations. As you know we are taking up welfare reform and 
one of the key ingredients is promoting work. This basically 
would fund the extension of bus service to longer hours to meet 
the late work hours and weekend work hours to service-oriented 
jobs, basically your blue collar jobs, people having to work 
late hours.
    The transportation services are critical. These people 
often don't have cars. The Maryland Department of Planning 
estimates that in 2000 over 1.1 million jobs fell into this 
category, up from 448,000 in 1990 and the projected is 1.25 
annually by 2005.
    I think this is really critical. It works obviously with 
our transit concerns that I have described and also with our 
welfare concerns, putting people to work.
    That would conclude our package. We think again it has a 
regional impact focusing on transit, taking care of blue collar 
workers and moving people more efficiently through the 
Washington area.
    Thank you very much for your consideration.
    [Prepared statement of Hon. Albert Wynn follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                 MARYLAND TRANSIT AND HIGHWAY PROJECTS


                                WITNESS

HON. CONSTANCE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Ms. Morella. Thank you, Mr. Chairman.
    First of all I want to thank you and your subcommittee for 
the opportunity to testify before you. I know that Congress is 
not in session and many Members have left but you have been 
here very diligent in your responsibilities.
    I also want to commend you on your musical prowess that I 
experienced last evening at Hexagon. I would like the staff the 
people who are about to testify to know about that. Really, it 
added a great deal to Hexagon. I think they are going to try to 
get you back next year.
    Mr. Rogers. Let me interrupt you briefly to commend you on 
your performance last evening at Hexagon, running across the 
stage with the dancers and the like. I was very impressed with 
your talents.
    Ms. Morella. Chairman Rogers, this is not like me to do 
something like this, only every two years, which is too often. 
[Laughter.] But it is for a very good cause. One of the 
beneficiaries was Hospice Caring. In my district they do a 
great job.
    I have been listening to the testimony of two of my 
Maryland colleagues. I did try to reduce my testimony so it is 
brief but I have given some more detail to the subcommittee to 
look at in terms of some of the specifics.
    As you may know the traffic congestion in the Washington 
area is the second worst in the country. Personally I think it 
is the first worst when it comes to the time and the money 
that's involved. But currently the average commute time in the 
District of Columbia area is 30 percent higher than the 
national average. Future projections show that the D.C. area 
commuter may spend at least 100 more hours yearly getting to 
and from work. The region needs adequate federal funding of 
transportation projects to avoid gridlock strangles in our 
nation's capital region.
    I notice that in so many of the polls they are showing 
transportation as the number one concern. I think that is 
throughout the country which says something about the 
importance of your position.
    While I have submitted various requests for the state of 
Maryland and Montgomery County in my written testimony I just 
want to highlight a few of the projects that are the highest 
priorities for the east district of Maryland.
    First of all in order to expedite the emergency response 
time and reduce congestion in the Washington metropolitan 
region and the state of Maryland, I urge the subcommittee to 
continue to fund the intelligent transportation system. The 
projects that are included within that which are distributed to 
the subcommittee, optimize the use of current and future 
highway capacities as well as improved safety on the local 
roadway system.
    It comes to about $6.5 million and I notice that Mr. 
Wynnalready mentioned it.
    Incidentally I think my statement to you in terms of my 
requests are very modest. In fact I think I am going to take it 
back and add some to them because as I listened to others I 
think gee, I should have asked for more. They are modest but 
they are really important.
    In addition to that I hope the subcommittee will include $1 
million in an effort to collocate Montgomery County, Maryland's 
new emergency communication center for police and fire rescue 
agencies and its transportation management center into one, 
state of the art, integrated operations and communications 
center.
    The county believes that this project is the next step in 
conforming to the goals and objectives of U.S. DOT's ITS 
national architecture as established by Congress through the 
implementation of 221.
    I also support the subcommittee's efforts to ameliorate 
congestion and commuter stress to funding public transportation 
systems. Montgomery County Maryland and the state of Maryland 
are currently attempting to expand the MARC train service 
throughout Maryland. The Silver Spring intermodal transit 
center is of particular interest to my constituents since by 
2020 the number of patrons is to increase by 70 percent to 
97,000 a day. The request is for a small, $5 million in Sectam 
5309 new starts discretionary funds for construction of the 
service by an intermodal transit center. Congressman Wynn also 
mentioned that in his testimony.
    In addition, another point that he mentioned which this 
gives it double effect and double prominence, is federal 
funding to continue the job access and reverse commute program. 
This provides a great service to impoverished Maryland 
residents. Almost 400,000 of the 4.8 million residents in 
Maryland are living below the poverty level according to the 
1990 census.
    Almost 224,000 of the 1.7 million total households in 
Maryland have no car available for work or any other tip. In 
1999 the state of Maryland had more than 96,000 clients 
receiving cash assistance under its TANF program. Over 27,500 
of which are working age and not exempt from work requirements.
    This is very important for us for our welfare bureau to get 
people to work and back and forth to work.
    Therefore, my request is for $5 million for the job access 
and reverse commute program to provide funding for new transit 
services to transport TATNFR, Temporary Assistance to Needy 
Families Recipients and other low income workers to job 
locations.
    In addition to that another very small request but a very 
important one is $5 million to create a safer walking 
environment to education programs, to innovative technology and 
to enforcement activities.
    This is a high priority. In order to create a safer walking 
environment by promoting and enhancing the walking pedestrian 
environment in Montgomery County.
    From 1997 to 1999 motor vehicle crashes resulting in 
pedestrian injuries jumped from 849 to 1416 in Montgomery 
County. During the same time period the number of pedestrian 
fatalities rose from 11 to 18 which is 18 too many.
    A community that is attractive and safe for pedestrians 
promotes greater use of transit, bicycles, and walking as a 
means of transportation. The results would reduce vehicular 
activity and improve air quality.
    Mr. Chairman and members of the subcommittee, Mr. Sabo and 
Mr. Olver, I want to thank you for the opportunity to testify. 
I urge you to give due consideration, as I say, to my very 
modest requests from this very important transportation 
subcommittee,
    Mr. Rogers. Thank you very much, Mrs. Morella. That is a 
very powerful statement you have made. We will do our best to 
help you.
    Mrs. Morella. Thank you very much.
    Mr. Rogers. Thank you.
    [Prepared statement of Hon. Constance Morella follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

               CENTRAL PENNSYLVANIA CORRIDOR ONE PROJECT


                                WITNESS

HON. GEORGE W. GEKAS, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PENNSYLVANIA
    Mr. Gekas. Thank you very much, Mr. Chairman. and Members 
of the Committee. The story that I am about to relate is that 
of Harrisburg, Pennsylvania. It has a great many distinctions, 
one of which is it is the capital of Pennsylvania. It is a 
central city of the 17th Congressional District. It is my birth 
place and my residence. That is enough to give you the 
importance of Harrisburg, Pennsylvania. But add to it the fact 
that Hershey is not too far and other cities of note like 
Lancaster and York and Carlisle, et cetera.
    But the real reason that Harrisburg is important for my 
presentation is that it is and always has been a transportation 
center. Because it is a transportation center it reiterates 
some of the concerns that all of the witnesses today have 
accounted, namely traffic congestion.
    Harrisburg in 1861 was and still is part of a main railroad 
system that in that year carried Abraham Lincoln from 
Harrisburg, first it was supposed to be to Washington and then 
he was spirited away by Pinkerton, the detective agency head, 
who then brought Abraham Lincoln from Harrisburg to Baltimore 
and then Washington for the inaugural.
    It is the same Harrisburg that found great throngs 
gathering when Abraham Lincoln was borne on his funeral train 
back to Illinois with a stop in Harrisburg.
    So this railroad center which has the Pennsylvania Turnpike 
now directly to its south, has the Interstate 81 directly to 
its west, is becoming more and more congested every single day. 
The story of all the witnesses with their respective problems 
in their respective districts.
    What we have done about it is that the capital area 
transportation system, which we call CAT has come up with a 
plan for what is called Corridor 1. It goes from Carlisle, the 
home of the school that educated Jim Thorpe and the present 
home of Dickinson College, Dickinson School of Law. and also 
the present work site of the Washington Redskins in spring 
practice, all of these attributes of Carlisle were well known 
in the United States.
    The Corridor 1 to which we refer begins in Carlisle and 
circles around to Lancaster which itself is world renowned for 
its Pennsylvania Dutch settlements and farm country and many 
other traditional places for tourists.
    What we want to do is to continue the stream of funding 
that your committee very kindly under the new start allocations 
in 1999, 2000 and 2001 and carry it through for this next 
fiscal year in an appropriate increase as the committee might 
see fit. That is the one portion of the testimony that I offer 
and on which I ask you to make strong consideration.
    In addition to that the anticipated cost of preliminary 
engineering totals for the FTA's oversee of this problem is 
about $7,700,000 so we need $5,430,000 for fiscal year 2003, 
the rest to be undertaken by the cooperation of the 
Pennsylvania Department of Transportation, the various counties 
involving the city of Harrisburg.
    So this Corridor 1 new start project is vital to the 
region, strongly supported with every public and private entity 
that can be involved in such a project in our area and we ask 
for favorable consideration thereof. That is it.
    You may visit Harrisburg any time and I will set that up 
for you. We will visit the very railroad station where Abraham 
Lincoln was escorted out of and into Baltimore.
    Mr. Rogers. You have given us such a pictorial tour of the 
state I am already tired. [Laughter.]
    No, you have whetted our appetite.
    The transit project is still in the alternatives analysis 
phase.
    Mr. Gekas. Yes.
    Mr. Rogers. When do you anticipate it will go to the 
preliminary engineering phase?
    Mr. Gekas. I think in the next fiscal year.
    Mr. Rogers. But not 2003?
    Mr. Gekas. When I say the next fiscal year, I guess I mean 
between now and the end of the next fiscal year.
    Mr. Rogers. So in 2003.
    Mr. Gekas. Yes.
    Mr. Rogers. As you know, our subcommittee has adopted the 
policy of not funding with federal dollars the alternatives 
analysis portion of a project the very beginning survey. We let 
the state use the monies we give them under a formula to fund 
that part. Then when you get to the preliminary engineering 
phase, then we can kick in federal dollars.
    Mr. Gekas. We will report back to you again.
    Mr. Rogers. We will look to see when you are going to 
graduate to the phase that we can kick some money into the 
preliminary engineering phase.
    Mr. Gekas. I understand.
    Mr. Rogers. A good statement, thank you for your testimony.
    Mr. Gekas. Thank you.
    [Prepared statement of Hon. George Gekas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

               PITTSBURGH, PENNSYLVANIA, TRANSIT PROJECTS


                                WITNESS

HON. WILLIAM COYNE, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF PENNSYLVANIA
    Mr. Coyne. Thank you, Mr. Chairman. Before I start let me 
say that when I return to Pittsburgh on the weekends I am 
always happy that George keeps protecting the state's capital 
and everything is running well up there.
    But thank you for providing me this opportunity to address 
the Chairman, Mr. Sabo, Mr. Olver, to speak in support of 
continued federal funding for the North Shore Connector, the 
Light Rail Transit Stage Two reconstruction project and new 
buses for the Port Authority of Allegheny County.
    I am here today to ask again this year for your support of 
these important projects. There are many public and private 
development projects planned or underway in Allegheny County as 
you know, and as a result of this activity improvements of the 
city's transportation infrastructure is strongly needed.
    The city of Pittsburgh and the Port Authority of Allegheny 
County have developed the North Short Connector to facilitate 
the flow of people through the city's north shore and its 
central business district. I ask that you include $24 million 
in the fiscal year 2003 transportation appropriations bill for 
this important project.
    Today I am also requesting that you include $28.2 million 
in the fiscal year 2003 transportation appropriations bill for 
the Port Authority of Allegheny County's Light Rail Transit 
Stage Two project. The LRT Stage Two Project is the second and 
final part of an effort to rebuild and modernize Allegheny 
County's Light Rail Transit system.
    The LRT Stage Two project will reduce traffic congestion 
and improve the flow of people and goods throughout the region.
    I also ask that you include $10 million in the bus 
facility's funding in fiscal year 2003 transportation 
appropriations bill for the Port Authority of Allegheny County. 
This money would be used to acquire new buses to replace 
existing Port Authority buses that have reached the end of 
their useful service life.
    These buses would be used in the Port Authority's extensive 
bus route network which currently serves 255,000 riders daily.
    Finally, I also ask the subcommittee to provide $4 million 
in fiscal year 2003 funding for the Port Authority access to 
jobs reverse commute initiative which was pointed out by many 
of the prior speakers.
    Our state and local governments have made tremendous 
commitments to the infrastructure project I have just 
mentioned, but federal assistance is needed as well. 
Consequently I ask for your support for these important transit 
requests and thank you again for the opportunity to testify and 
thank you for your past support of the projects that I have 
outlined here. Thank you.
    Mr. Rogers. The North Shore Connector I am told is funded 
at 50 percent federal, 50 local, correct?
    Mr. Coyne. Yes.
    Mr. Rogers. The other is 26 percent federal, 74 percent 
local?
    Mr. Coyne. Yes.
    Mr. Rogers. We like that.
    Mr. Coyne. As I say, the local communities and the state 
have made a commitment to these projects but we need a little 
assistance, as you know.
    Mr. Rogers. So many communities come in here and ask for 
federal funding of 80 percent or more and we have had to adopt 
a policy here in order to spread what few dollars we have to 
the hundreds of needy projects around the country, we have 
adopted an informal ruling here that we will not fund anything 
more than 60 percent federal, requiring the communities to come 
up with at least 40. So I congratulate you and those 
communities for being responsible.
    Mr. Coyne. Thank you.
    Mr. Rogers. Thank you very much.
    [Prepared statement of Hon. William Coyne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    The Massachusetts delegation is invited to come forward. 
Mr. Frank, Mr. Neal, Mr. McGovern, Mr. Tierney. And while you 
are coming I want to say these words to you and to your 
colleagues about our friend Jim Roland. His funeral I think is 
tomorrow. What a wonderful man, a great public servant of 
former Speaker O'Neil and others, a great American, bigger than 
life, a friend of ours and I just wanted to convey to somebody, 
particularly you, the love we had for him.
    Mr. Neal. I noticed he is to be cremated and his ashes are 
going to be sprinkled over Saratoga. We all knew that 
experience if you were with Jim Roland for more than two 
minutes.
    Mr. Rogers. The track, not the city. [Laughter] They should 
reserve some for Churchill Downs. He loved the Derby.
    I think Mr. Frank, you're first.
                              ----------                              

                                          Thursday, March 14, 2002.

 MANSFIELD, MASSACHUSETTS, HIGHWAY PROJECT FALL RIVER, MASSACHUSETTS, 
                            HIGHWAY PROJECT


                                WITNESS

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Frank. Thank you, Mr. Chairman. I appreciate your 
comments.
    I am here on two requests, both of which represent 
communities which I share with my colleague Mr. McGovern, and I 
speak on behalf of both of us, he will speak for himself.
    First, one about the town of Mansfield, Massachusetts. I 
noticed Mr. Gekas gave this strong historical connection of 
Harrisburg and Abraham Lincoln. I am here about Mansfield, 
Massachusetts. You all remember the very distinguished Senate 
Majority Leader Mike Mansfield and as nearly as we can tell he 
had absolutely no connection to Mansfield, Massachusetts. 
[Laughter]
    Mansfield is a very important regional transportation hub. 
It is located on several highways and it is very much between, 
it is sort of in the middle between Boston and Providence which 
in effect is going through in population in Massachusetts. It 
is the hub of several highway and rail connections. The Acela 
Amtrak train passes through it and that is very important. In 
fact your subcommittee was very helpful to Mr. McGovern and 
myself in persuading them to help us with fencing through the 
residential areas of the town of Mansfield and some other towns 
and we appreciated that. It was very beneficial.
    There is an underpass there on Route 106 which was badly 
constructed many years ago. It is below the water table. It is 
freezing. The underpass is seriously deteriorating and needs 
very substantial repair. The underpass goes under the railroad 
station which is not a stop for Acela but the Acela train goes 
along those tracks. It is a stop for our commuter rail, and 
this is a commuter rail which has an interstate impact because 
it is a commuter rail that you can board very close to 
Providence and go on into Boston and similarly take from Boston 
and be very close to Providence. People who live in Rhode 
Island can commute driving a very few miles, and get onto this 
commuter stop.
    It also plays an important role in the regional transit 
authority which is one of those regional authorities that 
receives federal funding, the Greater Attleboro Regional 
Transit Authority.
    So if this underpass is out of commission it causes real 
problems for the station.
    The station has to be redesigned. Work is going forward. It 
has to be raised, the track is going to be raised. It is 
involving a great deal of collaboration among Amtrak, the MBTA 
which runs the commuter rail and the Regional Transit 
Authority. That is going ahead. But we face this problem where 
if we do not get this underpass taken care of it will interfere 
literally with our ability to do what is needed for Amtrak to 
continue to function without obstruction as well as the 
commuter rail, et cetera.
    It is a road in some limbo and there has been a dispute 
between the city and the state as to who is in charge. 
Obviously I told them at a meeting I was at and the Governor 
was represented, he would have been at the original meeting but 
I screwed up the schedule. We are going to insist that the 
state make a very large chunk of it, but we did, because of its 
important regional impact, want to ask for $750,000 for 
engineering studies. They have done the preliminary work, they 
have got three options, they are ready to go forward. The total 
cost is only going to be about $12 or $13 million. We do ask 
now that we get some help with the funding. We intend to go to 
the state. We are asking you for less than half to go along 
with the 60 percent, Mr. Chairman, this would be probably 40 
percent. But it does have important regional aspects. It is a 
transportation hub between Long Island and Massachusetts and it 
has an impact on Acela.
    The second project that we will both be here on is one 
which would be a continuation. The subcommittee was very 
helpful last year to us. In the final appropriation bill money 
was appropriated for tearing down Route 79 in Fall River, 
Massachusetts. Fall River, like many, many cities across the 
country after World War II decided that the best thing to do 
with its wonderful waterfront was to build an elevated highway 
so no one could see it. We did that in New York and we did it 
in Boston and we did it in San Francisco and we did it in a lot 
of places. I think people were too influenced by all those 
movies in the 1930s in which any time anybody went to the 
waterfront they would get shot, and the waterfront was this bad 
place.
    People have now rediscovered waterfronts and many cities 
are in the process of trying to liberate their waterfront from 
the steel barriers that were erected.
    Route 79 is again a very important regional transportation 
hub. It intersects with Route 195 which is the highway that 
goes from Rhode Island, once again, to Massachusetts, and goes 
from Providence to Cape Cod and is a very important route for 
people coming from New York and to go to Cape Cod. So again 
this is a genuine regional project and we ask for an additional 
$750,000 to continue the planning and engineering that will 
allow us to remove Route 79 and also give people a better view 
of one of the great sights there which is the Battleship 
Massachusetts which is in Fall River and which is right there.
    Mr. Rogers. Did they not take Lincoln through this 
underpass on the way to----
    [Laughter.]
    Mr. Frank. Yes. He was disguised. Actually, I think they 
took Mr. Gekas. [Laughter.]
    [Prepared statement of Hon. Barney Frank follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

              SPRINGFIELD UNION STATION INTERMODAL PROJECT


                                WITNESS

HON. RICHARD NEAL, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Rogers. Mr. Neal.
    Mr. Neal. Thank you very much Mr. Chairman. Since you were 
so kind in your comments about Jim Roland and he was a dear 
friend of mine, I want to tell you that he would have wanted my 
project to be fully funded. [Laughter] In fact he just spoke to 
me about that not long ago.
    I want to thank Mr. Sabo and Mr. Olver as well as yourself. 
You have looked kindly on the Union Station project in 
Springfield in the past. My request today is for $8 million. 
When the project is finished it will have at least half of the 
dollars coming from the state of Massachusetts and I believe we 
will only be responsible here at the federal level for about 28 
percent of the entire project.
    It is an old union station located in the central business 
district of the city. Vacant for more than 25 years. It is a 
magnificent old building. Strong emotional attachment from the 
citizenry. That is where people embarked on their travels in 
World War I and World War II. It has been in a sad state of 
disrepair for a long time. Progress is being made. The asbestos 
has been removed. We have hired the same group that has done 
the union station project here in Washington, D.C. as the 
developer. I believe based on the conversation I just had a few 
minutes ago with the administrator of the Pioneer Valley 
Transit Authority that the federal funding along with the state 
funding and most importantly private funding is all falling 
into place. We have secured very decent commitments from the 
developers who, by the way, want part of the project. They do 
not want to just develop it they want part of the project and 
with your help, last time around you were very good. It was my 
major project a few years back on T-21 and I am hopeful that 
you will continue to build the bridge for us.
    I want to say thank you personally because you really have 
been very good to me.
    Mr. Rogers. The total cost is $115 million. That is a big 
project.
    Mr. Neal. It is a big project.
    Mr. Rogers. What will that include?
    Mr. Neal. A handsome allocation of retailing, commercial 
space, Amtrak is there. It will be a centralized location for 
bus operations. We work hard with a prospective tenant who owns 
the second largest bus company in America, is located in 
Springfield, and I believe those negotiations are continuing. 
It will be the center for taxi cab service. It will be a 
transportation center and we are most optimistic about its 
future. It has Amtrak because of the college towns that 
surround me in Northampton and in Mr. Olver's district Amhurst, 
Amtrak is heavily utilized in our region, and it is a very nice 
way to travel despite some of the criticisms.
    Mr. Rogers. A union station type project in many ways.
    Mr. Neal. Yes. Everything will be centralized there, but we 
expect that it also is a great opportunity for retailing.
    Mr. Rogers. So just over half, it looks to me like here, 
will be a combination of private funds, historic tax credits, 
and off-street parking revenue?
    Mr. Neal. That is right.
    Mr. Rogers. And the federal share today is what?
    Mr. Neal. We hope about 28 percent.
    Mr. Rogers. Let me go to Mr. Olver if he has any questions 
on this or anything else.
    Mr. Olver. If I may, Mr. Chairman, I would just like to 
speak when each of my colleagues has had an opportunity to 
present what they are going to and say in summation.
    Mr. Rogers. Fine.
    Mr. Neal. Mr. Chairman, can I be excused? I need to catch a 
plane, is that okay?
    Mr. Rogers. Certainly.
    [Prepared statement of Hon. Richard Neal follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

               MASSACHUSETTS HIGHWAY AND TRANSIT PROJECTS


                                WITNESS:

HON. JIM McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Rogers. Mr. McGovern.
    Mr. McGovern. Thank you, Mr. Chairman, Mr. Sabo and Mr. 
Olver.
    Obviously I concur with my colleague Mr. Frank with regard 
to the request for the Route 106 underpass project in 
Mansfield, Massachusetts. He has eloquently described the 
historical significance of that project so I do not need to say 
any more about it but it is an important project to that area 
and I join with him in asking your support for that.
    I also join with him in support for the Route 79 relocation 
and harbor area enhancement project in Fall River. This is a 
very important project to the overall economy of Fall River and 
whatever you can do to help us on that I would be grateful.
    In the past you have been very generous in helping me fund 
a project in Attleboro, Massachusetts, the Attleboro intermodal 
transportation facility which is an important project for the 
economic development of that area. It is also important to try 
to get people to use public transportation to get to and from 
work. It would also serve as not only the Attleboro, 
Massachusetts region but the Provide, Rhode Island region as 
well. A lot of people from Providence take the train based in 
Attleboro.
    I just want to make one pitch here for a project that I 
have put in a request for for the last few years, and because 
of some of these other things it has not quite made the cut but 
I want to make a special pitch for it this time around. It is a 
Veterans Memorial Corridor in Auburn, Massachusetts. We are 
requesting $1.5 million. Congressman Neal has joined on a 
request with me for this project.
    This would develop a 1.8 mile boulevard with parks on 
either side where monuments to our nation's veterans would be 
located. Federal assistance will be used to match $1.3 million 
in state and local funding already dedicated to the project. 
The total cost of this entire project is about $3 million.
    This is one of my top requests in this go-around. It would 
mean a great deal to this community and whatever you can do to 
help I would appreciate it.
    With that I will yield back my time.
    [Prepared statement of Hon. James McGovern follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                     MASSACHUSETTS TRANSIT PROJECTS


                                WITNESS

HON. JOHN TIERNEY, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Tierney. That is all right, Mr. Chairman.
    I want to thank you, Mr. Chairman, Mr. Sabo, Mr. Olver, and 
I would also like to thank the members of the staff here, Paul 
Carver and Beverly Pato and Stephanie Guthry and Linda Murer 
who gave valuable assistance to me and my staff as we prepared 
for this hearing.
    My first request is for $1 million to conclude the major 
investment study in the environmental impact studies, the so-
called MIS/EIS on the both Boston North Shore Corridor. It is a 
new start transit program. You have been generous enough in the 
last four years to provide funding for that and I am requesting 
this to conclude this phase of the project which seeks to 
address significantly the mass transit needs of residents of 
the North Shore of Massachusetts.
    These mass transit improvements should connect a number of 
North Shore cities directly to Logan Airport as well as to the 
city of Boston. Unlike the South Shore and other areas of 
Massachusetts, the North Shore has not had the good fortune in 
the past of having direct interstate access to downtown Boston 
or to the airport. Therefore these improving mass transit of 
the North Shore would greatly enhance the access of residents, 
it would reduct traffic congestion considerably, it would be of 
enormous help to the environment by significantly reducing car 
emissions and it would improve, of course, the economic 
development in the area, particularly the largest city and the 
most challenged economically of all the cities that are in my 
district.
    Mr. Chairman, I have four additional requests that I hope 
will be funded through the bus and bus-related capital 
investment grants, or where applicable the job access and 
reverse commute grants in order to provide and improve bus and 
transit facilities in the district.
    Of these requests one is for $700,000 to continue work that 
has already begun at the Merrimack Valley Transit Authority. 
This is the other end of my district. The MVTRA has been able 
to expand and improve the transit services for its citizens up 
in the valley thanks in great part to the generosity of this 
subcommittee over the past two years.
    In building on these successes the MVRTA is requesting 
continued federal assistance for the next phase which would 
consist of improving mass transit conditions to the city of 
Amesbury which is at the northwestern most part of the district 
and further exploring improvements for the city of Haverhill 
right next door.
    Amesbury's bus facility upgrade would vastly improve mass 
transit between Amesbury and Boston, a considerable distance 
but an important corridor for commuters. The Haverhill study is 
also consistent with our goals for improving job access to 
citizens with an efficient and effective transportation system.
    Secondly I am also requesting $4.5 million in federal 
assistance to alleviate current demands on existing intermodal 
stations in Beverly and Salem. They are exceeding capacity and 
it is causing significant stress on the transit systems of the 
North Shore.
    I appreciate again the subcommittee's recognition of this 
need and all the previous aid that has been provided. The most 
pressing need for both of those facilities is in additional 
parking spaces. Efforts have been underway in both of these 
communities with the support and help of the commonwealth to 
consider viable options to meet the increased demand for 
improved mass transit systems. Immediate needs dovetail with 
the long term transportation improvements envisioned for the 
North Shore and federal assistance will ensure that the 
citizens continue to work toward a more comprehensive, well 
planned and sound system of transportation.
    Also I am requesting $2.6 million for vital bus and bus 
facility improvements to assist the communities of Cape Ann, 
Rockport, Gloucester, Manchester by the Sea, Essex, an area you 
are probably familiar with, and the city of Lynn in meeting 
their growing demands for a comprehensive transit system. This 
request is similar to requests submitted in previous years, and 
again I want to thank the subcommittee for its past attention 
to the needs of these communities.
    I believe it is important as an ingredient for improving 
job opportunities for low income wage earners to make a viable 
and accessible transit system.
    I believe all of these improvements, especially the ones 
requested to improve the storage and maintenance facilities 
will help the buses running and to keep them running in 
enhanced job access to residents of these communities.
    Finally, Mr. Chairman and members of the committee, I am 
requesting $200,000 for a pilot project. The pilot project 
would be a grant to provide wheelchair accessible 
transportation service for purposes of transporting veterans to 
and from their appointments. This is probably one of the more 
vexing problems we have with veterans is transportation. We are 
fortunate in our district to have three community-based 
outreach clinics. We also have the Veterans Affairs Medical 
Center, and people are oftentimes sent from the outreach 
clinics to Veterans or down to Boston, to Roxbury and other 
parts, and they do not have the ability to drive. Oftentimes 
their spouses are as old or as infirm as they are and 
transportation is just becoming an increasingly dire need.
    We are hoping we can convince the committee to help us with 
a pilot project that would in fact provide those wheelchair 
accessible transportation services for those veterans.
    I just want to thank this committee, Mr. Chairman, all of 
you for the good deeds that you have done in the past for this 
district. They are incredibly important particularly for the 
challenge areas and in this environment of the economy. I would 
ask that you extend that goodwill and the finances again so we 
can continue to complete these projects and start that one new 
pilot program.
    Thank you.
    Mr. Rogers. Thank you for your statement. It was very well 
done.
    For the first time, and let me just mention in passing on 
the MIS/EIS, that project I am told is still in the alternative 
analysis stage which is the very beginning survey.
    Mr. Tierney. It actually combines both the MIS/EIS in an 
attempt to get that completed and expedite that.
    Mr. Rogers. My point is we have had to adopt a policy on 
the subcommittee that we do not fund at the federal level any 
of those early analysis studies. We are asking you to contact 
the states for those monies. We gave them $115 million for this 
very purpose last year. So we are asking that they fund those 
very early surveys.
    When you get to the preliminary engineering we can look at 
it again. So if you can talk to your state folks about that----
    Mr. Tierney. I certainly will, Mr. Chairman.
    Mr. Rogers. We will work with you because it is obviously a 
good project.
    Thank you.
    [Prepared statement of Hon. John Tierney follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Olver?
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Chairman, I would just like to endorse and commend to 
you my colleagues' requests for these importanttransportation 
infrastructure investments in Massachusetts.
    The transportation needs in many parts of our state have 
been delayed and often ignored, especially in the rural small 
city areas as the commonwealth has struggled to finish the 
funding of the big dig. This has been quite a difficult time 
for some of the other infrastructure needs.
    However, thanks to your leadership as the Chairman and also 
the leadership of your predecessor as Chairman of this 
subcommittee, Mr. Wolf, the state has been forced into a state-
wide transportation infrastructure program which will help us 
get away from some of the problems that many of us in the 
delegation have seen over time.
    Each of my colleagues has advocated for added funding to 
projects which you have been kind enough to fund one or more 
times partially over the last couple of years, and several of 
those projects are in fact continuations.
    I just again want to endorse and commend those projects to 
you and look forward to working with you to continue developing 
that balanced transportation program for Massachusetts and the 
critical transportation prudence that my colleagues have 
mentioned here today and which I think are very worthy 
projects.
    Mr. Rogers. Thank you very much.
                              ----------                              

                                          Thursday, March 14, 2002.

  COAST GUARD BUDGET FEDERAL AVIATION ADMINISTRATION TECHNICAL CENTER


                                WITNESS

HON. FRANK A. LOBIONDO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY, AND CHAIRMAN, SUBCOMMITTEE ON COAST GUARD AND MARITIME 
    TRANSPORTATION, COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
    Mr. LoBiondo. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be before you today in reference 
to a couple of matters.
    First, the Coast Guard's fiscal year 2003 budget. As Chair 
of the Coast Guard and Maritime I would like to continue 
working closely with you. I thank you for your courtesies in 
the past with the Coast Guard.
    It is a little bit different this year than in past years, 
though, mainly September 11th. The fact that President Bush has 
requested a significant increase in Coast Guard funding for the 
next year, the budget includes over $700 million increase for 
operating expenses, for acquisition funds. These are directly 
related to homeland security issues, law enforcement operations 
which have been greatly reduced because of September 11th are 
part of what we have to continue to try to do.
    The President's budget provides the Coast Guard with the 
additional resources that are necessary to protect our nation 
from terrorist attack.
    We have witnessed the Coast Guard with homeland security 
related issues, that on September 10th there was about two 
percent of their budget that was dedicated to homeland 
security. On September 12th it was about 60 percent. And it 
looks to settle somewhere around 30 percent when everything 
changes. That is in addition to all the other missions of 
search and rescue, drug interdiction, environmental related 
activities and interdiction of illegal aliens. They look to 
provide for additional personnel which are critically necessary 
and some 2200 Coast Guard personnel. This will include 160 sea 
marshals that will help protect our ports from vessels that are 
coming in by being able to check ships and manifests.
    I think all of these, Mr. Chairman, you will find when you 
look at it closely are very critical.
    It also discusses the effectiveness and readiness of the 
Coast Guard and again we are reflecting what the President has 
so strongly indicated he would like to see by visits to Coast 
Guard facilities recently and by very strong statements.
    I am also pleased that the President has included $500 
million to continue the Coast Guard's deep water replacement 
program. The project is vital to the Coast Guard for future 
multi-mission operational effectiveness.
    Mr. Chairman, some have said that maybe because of homeland 
security and September 11th we don't need deep water assets. 
The reality is that if you look to some of the videos that one 
of our largest Coast Guard cutters was anchored off the Statue 
of Liberty in New York Harbor, staged as an operational 
platform, and these asset in some cases, as you know, go back 
to World War II. They are being worn out in an alarming rate 
because the use by the Coast Guard is much increased after 
September 11th for patrol duties and the other aspects of what 
they need to do.
    I very much look forward to working with you. I ask you, I 
plead with you to fully implement the President's budget. I 
think it is critical to national security.
    In the essence of time I will submit the balance of my 
statement except for two areas, Mr. Chairman.
    One is in the area of aviation where there are two items 
that are vital to the district. The Federal Aviation 
Administration Technical Center which you are probably familiar 
with is our nation's premier facility. In fact it is probably 
the premier facility in the world for aviation safety and 
security research and development. They are doing great work 
especially in light of September 11th with all the testing for 
safety and security measures that are going on.
    What has somewhat gone unnoticed since September 11th 
though is that they are, have been and continue to test the 
next generation of landing systems, a system called WAAS, Wide 
Area Augmentation System. It is a satellite system that is 
requiring years and years and years of testing.
    They have been doing it with a 33 year old Boeing prop 
airplane. The inside of that airplane is as high tech as it 
gets, hooked up to 15 different satellites. But we were very 
close last year, the Tech Center had it worked out so thatthis 
would basically cost us zero dollars. They had it worked out with a 
leasing agreement, they had an agreement with Boeing and God bless the 
people at OMB who found fault with some language and did not like the 
way it was and held up the whole project.
    Now the plane is a year older, they have used about as much 
chewing gum on it as they can to keep this thing flying, and if 
we cannot keep it flying we cannot keep testing this landing 
system.
    So I would like to stress to you how critical this is. We 
are working directly with Secretary Manetta's office and hope 
that we can find a solution to this.
    Also an addition to the Atlantic City International Airport 
which is located where the Tech Center is and also where the 
177th Air National Guard is. The 177th Air National Guard is 
flying combat air patrols over New York and Washington. They 
are the highest alert since September 11th. They are critically 
located for the mission.
    One of the things that we found that has happened is 
because they are now working with the F-16s that are fully 
armed and loaded with missiles, there is a disruption with 
service at the Atlantic City National Airport because of the 
instrument landing systems and technicalities that are 
necessary for a second ILS system. The 177th is going to 
continue to expand. We are hopeful to minimize delays by 
commercial airliners if we can in fact acquire an additional 
ILS system. I ask for your consideration on that.
    I would like to submit the balance of the testimony for the 
record.
    Also, Mr. Chairman, I have had a number of colleagues who 
have come up to me expressing their concern and with to help 
with the Coast Guard situation and supporting the President's 
budget, and if it is okay with you, Mr. Chairman, I would also 
like to submit a letter that about 115 of our colleagues have 
signed.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Let it be filed in the record. Have you 
explored DoD monies for the additional ILS?
    Mr. LoBiondo. We are exploring all possibilities. DoD is 
looking at it. We have talked to Air Force people. Right now 
everything is bouncing back to FAA and because it is an 
operation of the Atlantic City International Airport they are 
saying it is under Transportation. But the reality is that with 
the increased mission of combat air patrols we are going to 
have to find a way to get one of these systems in there. We are 
not going to have much alternative.
    I am willing to look at all possibilities and take any 
suggestions you have to move forward.
    Mr. Rogers. As I understand it the one ILS would be 
sufficient but for the increased military patrols, correct?
    Mr. LoBiondo. Right.
    Mr. Rogers. So it is a homeland security matter, a DoD 
matter but we will work with you.
    Mr. LoBiondo. I appreciate that.
    Mr. Rogers. And I agree with you on the Coast Guard. We 
will do all we can with Commandant and his staff were in and we 
had a hearing with them, conducting hearings. We all know they 
have been severely underfunded for years. But now it is 
critical to national security that they have funding.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    And thank you, Mr. Chairman, for doing a good job with the 
Coast Guard.
    [Prepared statement of Hon. Frank LoBiondo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, March 14, 2002.

                       LOUISIANA HIGHWAY PROJECT


                                WITNESS

HON. JIM McCRERY, A REPRESENTATIVE IN CONGRESSFROM THE STATE OF 
    LOUISIANA
    Mr. McCrery. Thank you, Chairman Rogers, Mr. Olver, staff. 
I appreciate the opportunity to come before you today to 
highlight a project that is of particular significance to 
future economic development efforts in north Louisiana, in fact 
throughout Louisiana and potentially throughout the mid section 
of our nation. I will be submitting for your review before 
March 29th requests for other transportation projects in my 
congressional district but I did want to take this opportunity 
to highlight the I-49 issue.
    Interstate 49 was designated a high priority corridor in 
the National Highway System in ISTEA 1991. There was also an 
appropriation back then of about $30 million or so for this 
project. And TEA-21 confirmed the designation.
    As you can see from the map, the blue portion in Louisiana 
is completed interstate highway and that was funded, Mr. 
Chairman, under the old interstate highway system. Then you can 
see from Lafayette to New Orleans there is some green and red. 
The green is multilane divided highway, the red is controlled 
access highway. So that multilane divided highway is being 
upgraded to interstate standards, so that will become the last 
leg of I-49 going into New Orleans.
    Then between Shreveport and Texarkana, and that is the 
section that I am most concerned with. That is in my district 
from Shreveport to the Arkansas line, is not completed. It is 
an existing two lane road between Shreveport and Texarkana and 
that is the portion that we need to complete very soon. Take 
advantage of Interstate 30 which goes east/west through 
Texarkana, and then eventually to hook up with the section of 
I-49 that is complete north of Fort Smith, and then as you can 
see from the blue line up above Fort Smith to Kansas City you 
have multilane divided highways and some controlled access 
highways. That is being upgraded to interstate status.
    When all of that is complete we will have a mid-section 
interstate highway from Canada down to the Port of Orleans. 
That is significant, Mr. Chairman, because if you look on 
either side of that there is about a 500 mile gap in the mid-
section of the country below Kansas City that had no interstate 
highway going north/south.
    The Department of Transportation and Federal Highway 
Administration joined with the southeastern states to do a 
study related to the potential increase in Latin American 
trade, and that study showed that in the next 20 years we 
expect Latin American trade to substantially increase, in fact 
by 2020 it is supposed to triple. That will create between 1.5 
and 2.5 million new jobs, export-related jobs which are 
generally higher paying jobs in this country.
    So to take full advantage of that, Mr. Chairman, I believe 
we do need to complete this mid-section interstate system that 
was envisioned several years ago and approved in ISTEA and TEA-
21.
    A word about the section between Shreveport and Texarkana. 
The state line, Mr. Chairman, the Louisiana/Arkansas state line 
is about halfway between Shreveport and Texarkana. It is about 
35 miles on each side of the state line to Shreveport and then 
up to Texarkana. For the Arkansas leg from the state line north 
to Texarkana, this subcommittees and the Congress have seen fit 
to appropriate roughly one-half of the cost, total cost of 
construction so far for that leg whereas for the section from 
Shreveport to the Arkansas line we have only gotten 
appropriated so far about one-tenth of the cost. We would like 
to catch up to Arkansas.
    They are proceeding, they are already under construction 
south of Arkansas headed toward the Louisiana state line. 
Obviously if we do not catch up then they will meet a cornfield 
and not an interstate highway when they reach Louisiana and 
that will not do anyone any good.
    The state of Louisiana has and I submitted a letter with my 
testimony, Mr. Chairman, the Governor has committed to come up 
with the state match for any funds that we can get from the 
federal level.
    I told you, Mr. Chairman, the section of I-49 that is 
complete in Louisiana was constructed under the old Interstate 
Highway program. The fact is it is an unfinished interstate, 
and if we do not get federal funds over and above the federal 
allocation that goes to Louisiana every year, this highway will 
not be built. Louisiana is a poor state, I do not know that any 
state frankly could afford to build it, but certainly not a 
poor state like Louisiana.
    So I am here asking you to help us catch up with Arkansas, 
to get that 70 mile stretch between Shreveport and Arkansas 
completed so that we might get our section to the Arkansas line 
at the same time that Arkansas gets theirs to the Louisiana 
line and hook up.
    In that regard we have asked the Louisiana Transportation 
Department to come up with a plan that will get us the farthest 
and quickest with the least money. They have proposed a plan in 
sections starting at the Arkansas line and heading south. The 
most expensive part of the project will be hooking up I-49 to 
Interstate 200, a loop around Shreveport, but we are going to 
start at the Arkansas line and head south and that way they can 
lay more concrete, more miles with the least amount of money.
    Sections one and two of their proposal total about $48 
million. That is not quite accurate because we are also asking 
for some planning money for the interstate 220 loop to hook up 
with I-49.
    That is my request, Mr. Chairman. I would appreciate 
consideration from the subcommittee.
    Mr. Rogers. The gentleman makes a good case and he is 
correct, there is money included in the current year's bill on 
the Arkansas side of this stretch. We will make every effort 
that we can that will equalize things. We, as you well know, 
face bigger difficulties here than we ever have frankly with 
funding highway projects because of the problem with the trust 
fund which we hope is at least halfway fixed.
    But there is a flaw in TEA-21. It does not give the 
Appropriations Committee anything to work with during the 
interim period of these five year bills. And five years into a 
program, half the Congress is new. And there is nobody that 
knows in my judgment better about what to do about highways in 
an area than the congressman that represents it because he or 
she is on the ground every day as opposed to a bureaucrat at 
the state capital who is hardly ever there. So I think TEA-21 
when we reauthorize it ought to take that into account, and I 
hope the gentleman might help us with that.
    Mr. McCrery. Yes, sir. I certainly would.
    I am also cosponsoring Chairman Don Young's legislation to 
reinstate the trust fund money so we will have some more to 
work with.
    By the way, Mr. Chairman, all these folks out here are not 
waiting to testify. They are my constituents and they have come 
up from northwest Louisiana to witness the process a little 
bit. They are representatives of various Chambers ofCommerce in 
northwest Louisiana, so I hope you do not mind my bringing them in.
    Mr. Rogers. They are very much welcome and we appreciate 
them being here. I want to let them know that last year your 
congressman lowered the boom on me on this stretch of highway 
and he has been after me very very aggressively. He has been 
very mild in his presentation today. [Laughter.]
    Mr. McCrery. Thank you.
    Mr. Rogers. But we will do all we can to help in the 
project. It is obviously a good one.
    Thank you.
    Mr. McCrery. Thank you, Mr. Oliver.
    [Prepared statement of Hon. Jim McCrery follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               I N D E X

                              ----------                              
                                                                   Page
United States Coast Guard:
    Coast Guard Budget Federal Aviation Administration Technical 
      Center.....................................................   263
    LoBiondo, Hon. Frank, Representative from NJ...............263, 266
    Rufe, Roger, Vice Admiral, US Coast Guard (Ret.).............   327
Research and Special Programs Administration:
    Hazardous Materials Transportation...........................   337
    Hilton, Cynthia, Executive Vice President, Institute of 
      Makers of Explosives.......................................   337
Federal Aviation Administration:
    Airport Improvement Program Obligation (IL)..................   350
    Airports Council International--North America................   387
    Air Traffic Control Association, Inc.........................   393
    Anthes, Richard, President, University Corporation for 
      Atmospheric Research.......................................   363
    Barclay, Charles, President, American Association of Airport 
      Executives.................................................   387
    Barr, Hon. Bob, Representative from GA.......................   303
    Berkley, Hon. Shelley, Representative from NV..............133, 135
    Boardman, Joseph, Commissioner, New York State DOT.........380, 384
    Brown, Kirk, Secretary, Illinois DOT.......................344, 350
    Coast Guard Budget Federal Aviation Administration Technical 
      Center.....................................................   263
    El Paso, Texas, Transit, Highway and Airports Projects.......    41
    Filner, Hon. Bob, Representative from CA.....................94, 96
    Fossella, Hon. Vito, Representative from NY..................   307
    Gonzalez, Hon. Charles, Representative from TX...............45, 47
    Kucinich, Hon. Dennis, Representative from OH................18, 19
    Las Vegas, Nevada, Transit, Highway, and Airport Projects....   133
    LoBiondo, Hon. Frank, Representative from NJ...............263, 266
    National Association of Air Traffic Specialists..............   404
    Northwest Indiana Highway, Transit and Airports Projects.....   145
    Ohio Railroad, Highway, Transit and Airport Projects.........    18
    Osbourne, Hon. Tom, Representative from NE...................78, 80
    Pike, Walter, President, National Association of Air Traffic 
      Specialists................................................   404
    Plavin, David, President, Airports Council International--
      North America..............................................   387
    Professional Airways Systems Specialists.....................   577
    Reyes, Hon. Silvestre, Representative from TX................41, 43
    San Antonio, Texas, Transit, Highway and Airport Projects....    45
    San Diego, California, Highway, Transit, Airport, and 
      Railroad Projects..........................................    94
    University Corporation for Atmospheric Research..............   363
    Utah Aviation Projects.....................................496, 520
    Visclosky, Hon. Peter, Representative from IN..............145, 146
    Watkins, Hon. Wes, Representative from OK....................   311
Federal Highway Administration:
    Allen, Hon. Thomas, Representative from ME.................157, 159
    Baca, Hon. Joe, Representative from CA.....................114, 117
    Barr, Hon. Bob, Representative from GA.......................   303
    Bereuter, Hon. Douglas, Representative from NE...............72, 75
    Berkley, Hon. Shelley, Representative from NV..............133, 135
    Blumenauer, Hon. Earl, Representative from OR..............128, 130
    Boardman, Joseph, Commissioner, New York State DOT.........380, 382
    Boese, Mark, San Joaquin Valley APCD.........................   474
    Brown, Kirk, Secretary, Illinois DOT.........................   344
    California Industry and Government Central CA Ozone Study 
      Coalition..................................................   474
    Carson, Hon. Julia, Representative from IN...................14, 16
    Central Texas I-35 Corridor Project..........................    37
    Clark, Les, Independent Oil Producers Agency.................   474
    Connecticut Transit and Highway Projects.....................   180
    Cunha, Manuel, NISEI Farmers League..........................   474
    Damassa, John, California Air Resources Board................   474
    Davis, Hon. Susan, Representative from CA..................119, 121
    Edwards, Hon. Chet, Representative from TX...................37, 39
    El Paso, Texas, Transit, Highway and Airport Projects........    41
    Faleomavaega, Hon. Eni, Representative from AS.............150, 151
    Fall River, Massachusetts, Highway Project...................   241
    Filner, Hon. Bob, Representative from CA.....................94, 96
    Forbes, Hon. J. Randy, Representative from VA..............187, 189
    Frank, Hon. Barney, Representative from MA.................241, 244
    Gonzalez, Hon. Charles, Representative from TX...............45, 47
    Hoopa Valley Tribal Council..................................   481
    Illinois Highway Funding.....................................   344
    Issa, Hon. Darrell, Representative from CA.................124, 126
    Kucinich, Hon. Dennis, Representative from OH................18, 19
    Larsen, Hon. Rick, Representative from WA..................140, 142
    Las Vegas, Nevada, Transit, Highway, and Airport Projects....   133
    Lloyd, Alan, Chairman, California Air Resources Board........   474
    Los Angeles, California, Highway and Transit Projects........   107
    Louisiana Highway Project....................................   282
    Main Highway and Transit Projects............................   157
    Mansfield, Massachusetts, Highway Project....................   241
    Market Street Interchange Relocation Project.................    14
    Marshall, Clifford, Tribal Chairman, Hoopa Valley Tribal 
      Council....................................................   481
    Maryland Transit and Highway Projects......................217, 225
    Massachusetts Highway and Transit Projects...................   251
    McCrery, Hon. Jim, Representative from LA..................282, 285
    McGovern, Hon. Jim, Representative from MA.................251, 252
    McNulty, Hon. Michael, Representative from NY................27, 29
    Morella, Hon. Constance, Representative from MD............225, 228
    Nebraska Highway and Airport Projects........................    78
    Nebraska Highway Projects....................................    72
    Northwest Indiana Highway, Transit, and Airport Projects.....   145
    Ohio Railroad, Highway, Transit, and Airport Projects........    18
    Osbourne, Hon. Tom, Representative from NE...................78, 80
    Pascrell, Hon. Bill, Representative from NJ..................   324
    Patrick, Barbara, California Air Resources Board.............   474
    Portland, Oregon, Transit and Highway Projects.............128, 137
    Reheis-Boyd, Catherine, Western States Petroleum Association.   474
    Reyes, Hon. Silvestre, Representative from TX................41, 43
    San Antonio, Texas, Transit, Highway, and Airport Projects...    45
    San Diego, California Highway Projects.......................   124
    San Diego, California, Highway, Transit, Airport, and 
      Railroad Projects..........................................    94
    San Diego, California, Transit, and Highway Projects.........   119
    Sherman, Hon. Brad, Representative from CA.................107, 109
    Southern California Highway and High Speed Rail Projects.....   114
    Terry, Lynn, California Air Resources Board..................   474
    Upstate New York Highway and Transit Projects................    27
    Utah Highway Projects........................................   499
    Virginia Transit and Highway Projects........................   187
    Visclosky, Hon. Peter, Representative from IN..............145, 146
    Washington State Highway Projects............................   140
    Wu, Hon. David, Representative from OR.....................137, 138
    Wynn, Hon. Albert, Representative from MD..................217, 220
Federal Railroad Administration:
    Amtrak Appropriation (IL)....................................   350
    Baca, Hon. Joe, Representative from CA.....................114, 117
    Boardman, Joseph, Commissioner, New York State DOT.........380, 385
    Brown, Kirk, Secretary, Illinois DOT.......................344, 350
    Capon, Ross, Executive Director, National Association of 
      Railroad Passengers........................................   556
    Clement, Hon. Bob, Representative from TN.................7, 10, 12
    Experimental Franchising of Selected Amtrak Services.........   292
    Filner, Hon. Bob, Representative from CA.....................94, 96
    Fossella, Hon. Vito, Representative from NY..................   307
    Fowler, Carl, Vice President/General Manager, Rail Travel 
      Center.....................................................   291
    Gordon, Hon. Bart, Representative from TN....................  7, 8
    Kucinich, Hon. Dennis, Representative from OH................18, 19
    Mascara, Hon. Frank, Representative from PA..................   314
    Nashville/Middle Tennessee Commuter Rail System..............     7
    National Association of Railroad Passengers..................   556
    Ohio Railroad, Highway, Transit, and Airport Projects........    18
    Sanchez, Hon. Loretta, Representative from CA..............102, 105
    San Diego, California, Highway, Transit, Airport and Railroad 
      Projects...................................................    94
    Southern California Highway and High Speed Rail Projects.....   114
Federal Transit Administration:
    .............................................................
    Acevedo-Vila, Hon. Anibal, Representative from PR..........163, 165
    Allen, Hon. Thomas, Representative from ME.................157, 159
    American Public Transportation Association...................   357
    American Samoa/Territorial Highway Program...................   150
    Austin, Julie, Executive Director, Foothill Transit..........   491
    Barr, Hon. Bob, Representative from GA.......................   303
    Berkley, Hon. Shelley, Representative from NV..............133, 135
    Blumenauer, Hon. Earl, Representative from OR..............128, 130
    Boardman, Joseph, Commissioner, New York State DOT.........380, 383
    Brown, Kirk, Secretary, Illinois DOT.......................344, 347
    Bussing, Hon. Thomas, Mayor, City of Gainesville, FL.........   458
    Central Pennsylvania Corridor One Project....................   231
    Chatham Area Transit.........................................   436
    Chicago Metra Commuter Rail Project..........................    33
    City of Gainesville, FL......................................   458
    City of Miami Beach, FL......................................   444
    Connecticut Transit and Highway Projects.....................   180
    Coyne, Hon. William, Representative from PA................238, 240
    Davis, Hon. Susan, Representative from CA..................119, 121
    DeGette, Hon. Diana, Representative from CO..................60, 62
    Dexter, Jennifer, Easter Seals...............................   453
    Easter Seals Project Action..................................   453
    El Paso, Texas, Transit, Highway, and Airport Projects.......    41
    Ethridge, Hon. Linda, Mayor, Waco, TX........................   583
    Euclid Corridor Transportation Project.......................    22
    Fasana, John, Board Chairman, City of Duarte, CA.............   331
    Filner, Hon. Bob, Representative from CA.....................94, 96
    Foothill Transit, West Covina, CA............................   491
    Forbes, Hon. J. Randy, Representative from VA..............187, 189
    Ford, Nathaniel, General Manager/CEO, MARTA..................   409
    Gekas, Hon. George, Representative from PA.................231, 233
    Gonzalez, Hon. Charles, Representative from TX...............45, 47
    Hahn, Mayor James K., City of Los Angeles, CA................   335
    Hall, Hon. Ralph, Representative from TX.....................56, 58
    Hunt County, Texas, The Connection Project...................    56
    Illinois Transit Major Capital Investment....................   347
    Jamaica Bay, New York, Transit Project.......................   176
    James, Hon. Sharpe, Mayor, City of Newark, NJ................   465
    Kirk, Hon. Mark, Representative from IL......................33, 35
    Kucinich, Hon. Dennis, Representative from OH................18, 19
    Lansing, Scott, Executive Director, Chatham Area Transit.....   436
    Las Vegas, Nevada, Transit, Highway, and Airport Projects....   133
    Los Angeles, California, Highway and Transit Projects........   107
    Lucas, Hon. Ken, Representative from KY......................  5, 6
    Maine Highway and Transit Projects...........................   157
    Maryland Transit and Highway Projects......................217, 225
    Massachusetts Highway and Transit Projects...................   251
    Massachusetts Transit Projects...............................   257
    McGovern, Hon. Jim, Representative from MA.................251, 252
    McKinney, Hon. Cynthia, Representative from GA...............   319
    McNulty, Hon. Michael, Representative from NY................27, 29
    Memphis Area Transit Authority...............................   574
    Metra........................................................   541
    Metropolitan Atlanta Rapid Transit Authority.................   409
    Morella, Hon. Constance, Representative from MD............225, 228
    Neal, Hon. Richard, Representative from MA.................246, 248
    New Jersey Transit Projects..................................   167
    North San Diego County Transit Development...................   438
    Northwest Indiana Highway, Transit, and Airport Projects.....   145
    Nygaard, Julianne, Chairwoman, North San Diego County Transit 
      Development................................................   438
    Ohio Railroad, Highway, Transit, and Airport Projects........    18
    Orange County, California, Centerline Light Rail Project.....   102
    Pittsburgh, Pennsylvania, Transit Projects...................   238
    Portland, Oregon, Transit and Highway Projects.............128, 137
    Regional Transportation Commission of Clark County, NV.......   366
    Reyes, Hon. Silvestre, Representative from TX................41, 43
    Rothman, Hon. Steven, Representative from NJ...............167, 169
    Roybal-Allard, Hon. Lucille, Representative from CA..........   330
    San Antonio, Texas, Transit, Highway and Airport Projects....    45
    Sanchez, Hon. Loretta, Representative from CA..............102, 105
    San Diego, California, Highway, Transit, Airport, and 
      Railroad Projects..........................................    94
    San Diego, California, Transit, and Highway Projects.........   119
    San Diego Metropolitan Transit Development Board.............   399
    San Juan, Puerto Rico, Tren Urbano Project...................   163
    Shays, Hon. Christopher, Representative from CT............180, 181
    Sherman, Hon. Brad, Representative from CA.................107, 109
    Southeast Corridor, Colorado, Transit Project................    67
    Southeast Corridor, Colorado, Transit Project Broadway Bridge 
      Reconsideration Project....................................    60
    Springfield Union Station Intermodal Project.................   246
    Tancredo, Hon. Thomas, Representative from CO................67, 69
    Tierney, Hon. John, Representative from MA.................257, 260
    Transit Authority of Northern Kentucky (TANK)................     5
    Tubbs-Jones, Hon. Stephanie, Representative from OH..........22, 24
    Upstate New York Highway and Transit Projects................    27
    Utah Transit Projects........................................   512
    Virginia Transit and Highway Projects........................   187
    Visclosky, Hon. Peter, Representative from IN..............145, 146
    Waco Transit Bus and Bus Facility............................   583
    Weiner, Hon. Anthony, Representative from NY...............176, 178
    Williams, Leon, Chairman, San Diego Metropolitan Transit 
      Development Board..........................................   399
    Wu, Hon. David, Representative from OR.....................137, 138
    Wynn, Hon. Albert, Representative from MD..................217, 220
Transportation Funding:
    Cannon, Hon. Chris, Representative from UT...................   496
    Coalition of Northeastern Governors..........................   478
    Dean, Gov. Howard, Chair, Coalition of Northeastern Governors   478
    Hansen, Hon. James, Representative from UT...................   496
    Hoyer, Hon. Steny, Representative from MD..................191, 197
    Matheson, Hon. Jim, Representative from UT...................   496
    Olver, Hon. John, Representative from MA.....................   263
    Pataki, Gov. George, Lead Governor, Coalition of Northeastern 
      Governors..................................................   478
    South Capitol Gateway Project................................   191
    Swift, Gov. Jane, Vice Chair, Coalition of Northeastern 
      Governors..................................................   478
    Utah Transportation Requests...............................496, 500
    Whitfield, Hon. Ed, Representative from KY...................  1, 3

</pre></body></html>
